Final OIG SAR covers.qxd     5/19/05    9:34 AM       Page 1




                                                               Semiannual Repor
                                                                           Reportt
                           U.S. Department of Commerce
                            Office of Inspector General
                                Room 7099C, HCHB
                                                               to Congress
                                                                  Congress
                           1401 Constitution Avenue, N.W.
                              Washington, D.C. 20230

                                 Internet Web Site:
                                 www.oig.doc.gov




                                                                            March 2005
                                                                            March
       IG’s

Semiannual Report

   to Congress





     March 2005
                                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                                      The Inspector General
                                                                      Washington, D.C. 20230


March 2005

The Honorable Carlos M. Gutierrez
Secretary of Commerce
Washington, D.C. 20230


Dear Mr. Secretary:

I am pleased to provide you with the Inspector General’s Semiannual Report to Congress for the first half of fiscal year
2005. The Inspector General Act requires that we twice annually prepare this report summarizing our assessments of
Commerce activities and operations and that you transmit it, with any comments you may wish to add, to Congress within
30 days of receiving it.

This is the first semiannual report we have prepared under your watch as Commerce Secretary. You will find that it contains
the outcome of much of the work I briefed you on in our initial meeting shortly after your confirmation. My purpose with
each semiannual is to offer you a concise, ready source of insight into the strengths and weaknesses of departmental
operations and to highlight any improvements we believe are necessary to correct deficiencies. The ultimate goal in this and
of all our reporting and other communications is to ensure this Department fulfills its many critical roles as effectively as
possible. I view Commerce’s success in this endeavor as very much a partnership between us, and I am confident that under
your leadership the Department will continue to make strides toward resolving the management challenges and any other
issues my office identifies.

In fact, during the past 6 months, we have noted significant progress on several key challenge areas, as evidenced by the
Department’s development of a plan to eliminate its information security material weakness, steps to strengthen acquisition
planning and management, and actions to further enhance the export control process. In work currently under way, I am
pleased to report strong focus on the part of your senior officials in addressing other crucial issues—emergency prepared­
ness, the 2010 decennial, and marine resource management, to name a few. At the same time, Commerce continues to face
considerable challenges in addressing these issues and a number of other fundamental areas such as improving performance
measurement throughout the Department and enhancing human resource operations at USPTO.

Secretary Gutierrez, I trust that you will find this and future semiannual reports useful in your efforts to guide this Depart­
ment. I again welcome you to Commerce, and I look forward to working with you.



Sincerely,




Johnnie E. Frazier
Contents

IG’s Message to Congress ...................................................................................................................................................................... 1



Major Challenges for the Department .................................................................................................................................................. 3

      Strengthen Department-Wide Information Security ......................................................................................................................... 3

      Effectively Manage Departmental and Bureau Acquisition Processes ............................................................................................. 4

      Enhance USPTO’s Ability to Manage and Operate Its Own Processes ............................................................................................ 4

      Control the Cost and Improve the Accuracy of Census 2010 ........................................................................................................... 5

      Monitor the Effectiveness of NOAA’s Ocean and Living Marine Resources Stewardship .............................................................. 6

      Promote Fair Competition in International Trade ............................................................................................................................. 6

      Enhance Export Controls for Dual-Use Commodities ...................................................................................................................... 7

      Enhance Emergency Preparedness, Safety, and Security of Commerce Facilities and Personnel .................................................... 8

      Continue to Strengthen Financial Management Controls and Systems ............................................................................................ 8

      Continue to Improve the Department’s Strategic Planning and Performance Measurement in Accordance with GPRA ................ 9



Agency Overviews
      Bureau of Industry and Security ...................................................................................................................................................... 11

      Economic Development Administration ......................................................................................................................................... 15

      Economics and Statistics Administration ........................................................................................................................................ 17

      International Trade Administration ................................................................................................................................................. 21

      National Oceanic and Atmospheric Administration ........................................................................................................................ 25

      National Telecommunications and Information Administration ..................................................................................................... 29

      Technology Administration ............................................................................................................................................................. 31

      United States Patent and Trademark Office .................................................................................................................................... 35

      Department-Wide Management ...................................................................................................................................................... 37



Office of Inspector General ................................................................................................................................................................. 41

      Tables and Statistics ........................................................................................................................................................................ 43

      Reporting Requirements .................................................................................................................................................................. 51



Acronyms ............................................................................................................................................................................................... 53



Types of OIG Work Products .............................................................................................................................................................. 55

Inspector General’s
Message to Congress

I am pleased to submit the Office of Inspector General’s semian­           ness and began discussions with the units on ways to strengthen
nual report covering our work from October 1, 2004, through                their C&A packages. We plan to work closely with the Department’s
March 31, 2005—our first semiannual report for the 109th Con­              Chief Information Officer and other officials until the security sta­
gress and the new Secretary of Commerce, the Honorable Carlos              tus of all Commerce IT systems and data has improved.
Gutierrez, as well as the first to reflect the priorities set out in our
draft FY 2005-2007 work plan. We look forward to working with              Securing technologies and technical information that have poten­
you, Secretary Gutierrez, and Department officials to address the          tial military applications was another key focus of our work: pur­
management challenges that face Commerce and respond to the                suant to the National Defense Authorization Act, we assessed the
President’s Management Agenda.                                             Bureau of Industry and Security’s (BIS’) licensing process for


              “Our partnership with Congress and departmental officials
              is essential to ensuring that Commerce not only effectively
              fulfills its stated mission but also reaches its potential for
              promoting the public good.”

During the past 6 months, we identified savings for the Depart­            chemical and biological commodities as our part in the annual
ment of more than $20 million in just 23 audits. Our investiga­            interagency review of U.S. licensing processes. Enhancing export
tions have recovered significant taxpayer dollars as well, and re­         controls for dual-use commodities to ensure they do not fall into
sulted in a number of criminal convictions. We have made numer­            the hands of countries and entities of concern remains a critical
ous recommendations that, when implemented, will improve                   management challenge for the Department. I am pleased to report
Commerce’s acquisition management, strengthen security over its            that BIS’ licensing operations are generally sound, and the agency
critical data, enhance program delivery, and promote operational           was receptive to our recommendations for further improvement.
efficiency.
                                                                           With regard to our investigative activities, we concluded several
For example, we audited several task orders issued under a Cen­            key cases during the reporting period—one involving the convic­
sus Bureau contract that to date has paid out some $63 million. In         tion of the last of four local officials in connection with the fraudu­
one case, we recommended that $2.3 million of the $5.8 million             lent use of federal grant funds. This individual was ordered to pay
billed under the task order be disallowed. In another, we identi­          $723,553 to the government, including $145,221 that will be re­
fied approximately $1.7 million in unsupported billings and more           turned to Commerce’s Economic Development Administration,
than $3 million in unapproved subcontract costs.                           and sentenced to 41 months in prison. He will also be debarred
                                                                           from receiving future federal contracts or awards.
We continued our focus on information security with efforts to
help the Department eliminate the material weakness we identi­             Over the course of the coming months, as we pursue other prior­
fied in our FY 2004 evaluation, performed under the Federal In­            ity areas, we will keep you apprised of our findings as well as
formation Security Management Act (FISMA). This is the fourth              Commerce’s progress at meeting the management challenges we
consecutive year that our FISMA work has reported deficiencies             have identified. This communication and our partnership with you
serious enough to warrant a material weakness finding because of           and departmental officials are essential to ensuring that Commerce
certification and accreditation (C&A) problems in many Commerce            not only effectively fulfills its stated mission but also reaches its
operating units. During this reporting period, we provided com­            potential for promoting the public good. I look forward to our
ment on the Department’s plan for eliminating the material weak-           continued collaboration toward that end.




March 2005/Semiannual Report to Congress                                                                                                       1
2   U.S. Department of Commerce/Office of Inspector General
Major Challenges for the Department



The Office of Inspector General, in assessing its work at the close
of each semiannual period, develops its list of Top 10 Manage­                      TOP 10 MANAGEMENT CHALLENGES
ment Challenges the Department faces. Each challenge meets one                         1. Strengthen Department-wide information security.
or more of the following criteria: (1) it is important to the Depart­                  2. Effectively manage departmental and bureau acquisition
ment’s mission or the nation’s well-being, (2) it is complex, (3) it                      processes.
involves sizable resources or expenditures, or (4) it requires sig­                    3. Enhance USPTO’s ability to manage and operate its
nificant management improvements. Because of the diverse na­                              own processes.
ture of Commerce activities, these criteria sometimes cut across
                                                                                       4. Control the cost and improve the accuracy of Census
bureau and program lines. Experience has shown that by aggres­                            2010.
sively addressing these challenges the Department can enhance
program efficiency and effectiveness; eliminate serious operational                    5. Monitor the effectiveness of NOAA’s ocean and living
                                                                                          marine resources stewardship.
problems; decrease fraud, waste, and abuse; and achieve substan­
tial savings.                                                                          6. Promote fair competition in international trade.
                                                                                       7. Enhance export controls for dual-use commodities.
                                                                                       8. Enhance emergency preparedness, safety, and security
                                                                                          of Commerce facilities and personnel.
Challenge 1                                                                            9. Continue to strengthen financial management controls
                                                                                          and systems.
STRENGTHEN DEPARTMENT-WIDE
                                                                                      10. Continue to improve the Department’s strategic planning
INFORMATION SECURITY                                                                      and performance measurement in accordance with GPRA.

In FY 2005, the Department will spend some $1.4 billion of its
$5.7 billion budget on information technologies and related secu­                   critical C&A activities as assessing risk, accurately identifying
rity. Systems supporting NOAA’s ocean and environmental mis­                        system components, and testing security controls. When imple­
sions, the Census Bureau’s statistical operations, and BIS’ export                  mented properly, certification is a powerful tool for helping en­
control activities are just a few of Commerce’s many critical infor­                sure that appropriate security controls are in place, functioning
mation assets that provide data and operations essential to the nation’s            properly, and producing the desired outcome. Through accredita­
well-being. Despite improvements in cyber security over the years,                  tion, agency officials formally accept responsibility for the secu­
Commerce continues to face significant challenges in adequately                     rity of the systems over which they have management, operational,
protecting its systems and data from loss or compromise.                            and budget authority and for any adverse impacts to the Depart­
                                                                                    ment should a breach in security occur.
For the past 4 years we have advised the Department to report
information security as a material weakness, based on the find­                     In February 2005, the Department’s Chief Information Officer is­
ings of our annual review mandated by the Federal Information                       sued a plan to address the material weakness. The plan’s goal is to
Security Management Act of 2002 (FISMA).1 The Department                            ensure that sufficient progress is made to eliminate the basis for
has reported it as such in its Performance & Accountability Re­                     the IT security material weakness by the end of FY 2005. It fo­
port for all 4 years.                                                               cuses on putting in place repeatable processes that produce ac­
                                                                                    ceptable quality C&A packages in all operating units and com­
Our most recent FISMA evaluation continued to identify prob­                        pleting packages for all national-critical systems and some mis­
lems with certification and accreditation (C&A) in many of the                      sion-critical systems by fiscal year-end. It includes schedules that
Department’s operating units, particularly in their conduct of such                 were developed in collaboration with the operating units and plans
                                                                                    of action and milestones to track progress. It also provides for in­
  1
                                                                                    creased oversight by the Department and bureau CIOs. The De­
    FISMA provides a comprehensive framework for ensuring that information
resources supporting federal operations and assets have effective security con­     partment CIO believes the plan establishes achievable schedules
trols. The act requires OIGs to perform independent security evaluations of their   and an approach that will yield acceptable quality C&A packages.
agencies annually.                                                                  We have not yet had the opportunity to review the schedules.



March 2005/Semiannual Report to Congress                                                                                                             3
Major Challenges for the Department




Department-wide Contract                                                          Commerce has acknowledged
Security Deficiencies Remain                                                      the need for better acquisition
                                                                                  planning and management,
Last fiscal year, to help Commerce secure information and infor­                  and has taken steps to im­
mation systems handled by contractors, we recommended that it                     prove. These include increas­
take steps to incorporate its two new security clauses2 into ser­                 ing training for contracting
vice contracts and provide appropriate contract oversight. (See                   officer representatives and
September 2004 Semiannual Report, page 43.) The first clause                      other contracting profession­
contains requirements for protecting Commerce information re­                     als, and creating an
sources used by contractors, as well as contractor-owned systems                  intradepartmental task force to
that interconnect with a Department network or store or process                   develop guidance for stan­
Commerce data. The second clause requires appropriate back­                       dardizing the interagency
ground investigations and IT security awareness training for con­                 agreement process Depart­
tractor personnel who access Commerce systems.                                    ment-wide. But our reviews
                                                                                  continue to identify weak­
In response to our recommendations, the Department’s acquisi­                     nesses stemming from inad­
tion management and CIO offices reviewed a sample of IT ser­                      equate oversight of one or NOAA’s Geostationary Operational
vice contracts and presented their results in the annual Depart­                  more aspects of the acquisition Environmental Satellites orbit the
ment of Commerce IT Contract Compliance Review Report.3 The                       process—solicitation; devel- earth monitoring impending severe
review looked at 80 of the Department’s nearly 2,600 IT service                   opment of clear, consistent weather conditions. The first GOES
                                                                                                                    was launched in 1974. NESDIS cur-
contracts, found that only 29 percent of the sample contained both                contract specifications; open rently is acquiring several additional
security clauses, and noted considerable confusion among con­                     and rigorous competition to GOES through NASA.
tracting officials regarding their applicability. These findings point            secure best value; and contract
                                                                                                                    Source: www.nosa.noaa.gov/ descriptions/
to the need for further efforts to clarify the clauses and ensure                 management. For example, nesdis/goes.html. 

their appropriate inclusion in contracts. In addition, it is not clear            our recent audits of three task 

whether the Department has identified all contractor operations                   orders for $17.6 million in ITservices issued under a Census Bu­

and facilities subject to IT security safeguards (i.e., all those con­            reau contract questioned a total of $8.5 million in unsupported or 

nected to Commerce networks or that process or store sensitive                    unapproved costs. (See page 19.) 

Commerce information). As part of our FISMA work this fiscal
year, we are reviewing IT service contracts for this purpose as                   With numerous high-cost acquisitions planned for the coming
well as to determine whether such contracts incorporate and ap­                   years, the Department must continue to give careful attention to
propriately implement the security clauses.                                       its acquisition policies and procedures to protect the investment
                                                                                  of public dollars and ensure best value. NOAA’s planned acquisi­
                                                                                  tion of geostationary operational environmental satellites (GOES­
                                                                                  R project) is one such procurement that will bear close watching.
Challenge 2                                                                       This project will be the largest single acquisition contract NOAA
                                                                                  has ever awarded—with total cost expected to exceed $4 billion.
EFFECTIVELY MANAGE
DEPARTMENTAL AND BUREAU
ACQUISITION PROCESSES
                                                                                  Challenge 3
The Department spends more than $1.75 billion annually—nearly
30 percent of its budget—procuring goods and services. Yet for                    ENHANCE THE U.S. PATENT AND
Commerce and most other federal agencies, effective acquisition                   TRADEMARK OFFICE’S ABILITY TO
management has been a long-term problem, and both OMB and
                                                                                  MANAGE AND OPERATE ITS OWN
the Government Accountability Office fault agencies for inad­
equate oversight of procurements.                                                 PROCESSES

                                                                                  USPTO continues its transformation to a performance-based or­
2
    Issued in November 2003 by the Office of Acquisition Management.              ganization that, like a business, has the flexibility to adapt to chang­
 3
                                                                                  ing market forces and meet the needs of consumers. Controlling
   Department of Commerce IT Contract Compliance Review Report, prepared for
U.S. Department of Commerce, Office of the Chief Information Officer, Office of
                                                                                  its budget, procurements, and personnel decisions offers the agency
IT Security, Infrastructure and Technology, by GNS, Inc., Germantown, MD, Sep­    opportunities for operational efficiencies and strengths, but brings
tember 30, 2004, ITCR-2004-004-001.                                               new management challenges as well.




4                                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                         Major Challenges for the Department




                                                                       Challenge 4
                                                                       CONTROL THE COST AND
                                                                       IMPROVE THE ACCURACY OF
                                                                       CENSUS 2010

                                                                       Commerce is at the midpoint of its decade-long preparations for
                                                                       the 2010 decennial. With estimated costs of more than $9 bil­
                                                                       lion,4 this decennial census is one of the most costly operations—
                                                                       and among the most critical—the Department undertakes.

                                                                       The Census Bureau’s plans and activities for the upcoming de­
                                                                       cennial remain a major focus of our work, as we monitor its at­
                                                                       tempts to capitalize on new technologies. Our assessment of the
USPTO’s new headquarters in Alexandria, VA.                            2004 census test found that handheld computers and related auto­
Source: USPTO.                                                         mation are promising replacements for paper-based processes, and
                                                                       that the enumerator workforce was able to use the devices. This
                                                                       was the first of two scheduled site tests of concepts, systems, and
Our recent work on patent examiner production goals, performance
                                                                       procedures being evaluated for the 2010 census. (See September
appraisal plans, and awards; USPTO’s new headquarters complex;
                                                                       2004 Semiannual Report, page 20.) But we noted problems with
and its Office of Human Resources identified problems that could
                                                                       data transmissions, technical field support, enumerator training,
potentially undercut its efficiency as a performance-based organi­
                                                                       testing of revised group quarters definitions, and various manage­
zation. (See September 2004 Semiannual Report, pages 38-40.)
                                                                       ment and administrative activities. These must be resolved for the
To improve examiner production, we recommended that USPTO
                                                                       bureau to meet accuracy and cost-containment goals.
consider revising patent examiner goals to reflect efficiencies in
automated work processes and evaluate its patent examiner award
system to determine whether a more effective way of increasing
production exists. USPTO concurred with our recommendations
and agreed to reassess the current patent examiner goals, perfor­
mance, performance appraisal plans, and award system.

Our report on the agency’s move to its new headquarters recom­
mended that USPTO finalize an occupancy agreement with the
General Services Administration and submit the required docu­
mentation for additional space to accommodate future staff growth.
USPTO’s current complement of staff will fill all available space
in the new complex.

Finally, our audit of Office of Human Resources activities con­
cluded that USPTO had ignored hiring practices, merit system
principles, and sound human resource policies and procedures
when recruiting a new personnel director. The agency was gener­
ally receptive to our recommendations for improving administra­
tion of human resources, but, unfortunately, our ongoing work
continues to reveal serious problems in its personnel practices,
which must be resolved. USPTO anticipates hiring hundreds of
examiners and other staff in the coming fiscal year. It is crucial
that its policies and practices for doing so comply with all appli­
cable federal requirements.                                            Enumerators tested the feasibility of using handheld computers to gather
                                                                       census data in the 2004 test. Refinements to the process will be tested in
We will continue to monitor the agency’s handling of critical func­    2006.
tions, its success at using its flexibilities as a performance-based   Source: U.S. Census Bureau.
organization, and any related impacts on the effectiveness of its
operations.                                                            4
                                                                           In constant 2000 dollars.




March 2005/Semiannual Report to Congress                                                                                                      5
Major Challenges for the Department




We have initiated work to assess the bureau’s response to our rec­
ommendations regarding efforts to improve the master address file.5
We are also reviewing the bureau’s Field Data Collection Automa­
tion (FDCA) program—a massive effort to acquire and manage
field automation for the 2008 dress rehearsal and 2010 census.
The Census Bureau had intended to develop FDCA in-house with
contractor support. But in early 2004, Census determined that it
did not have the technical resources to do so while simultaneously
supporting the 2004 and 2006 field tests. Consequently, the bu­
reau plans to hire a contractor to develop, test, and deploy technol­
ogy and provide support services for 12 regional centers and more
than 450 local census offices, which at their peak, support more
than 500,000 temporary field staff employees.

We will soon begin work on the 2006 census test, which will in­
clude follow-up on issues identified in our report on the 2004 test              NOAA has been removing thousands of tons of debris, contaminated soil,
(Improving Our Measure of America: What the 2004 Census Test                     and inactive landfills in the Pribilof Islands Environmental Restoration
                                                                                 Project. The U.S. Fish and Wildlife Service Vessel PENQUIN II, seen here
Can Teach Us in Planning for the 2010 Decennial Census, OIG­                     off a cobblestone beach in the Pribilof Islands, supplies everything needed
16949/September 2004).                                                           by the Aleuts who live there.
                                                                                 Source: NOAA photo library.


Challenge 5                                                                      We are working with NOAA to resolve any common problems
                                                                                 we identify with administration of these grants as our series
MONITOR THE EFFECTIVENESS OF
                                                                                 progresses.
NOAA’S STEWARDSHIP OF OCEAN
AND LIVING MARINE RESOURCES                                                      Other key areas we hope to focus on include the effectiveness of
                                                                                 specific areas of scientific research and research management at
The U.S. Commission on Ocean Policy, in its final report—An                      NOAA, including the agency’s process for maintaining scientific
Ocean Blueprint for the 21st Century—pointed to NOAA’s critical                  integrity and quality.
role in protecting our nation’s ocean and coastal resources. As the
lead agency for marine resource protection, NOAA encompasses
the single largest number of civilian ocean programs, and the com­
mission report envisioned these responsibilities expanding.
                                                                                 Challenge 6
We plan to give close attention to a number of NOAA’s broader
environmental stewardship responsibilities in the coming years, tar­             PROMOTE FAIR COMPETITION
geting such high-profile activities as Coastal Zone Management,                  IN INTERNATIONAL TRADE
the National Estuarine Research Reserve System, National Marine
Sanctuary programs, and the Pribilof Islands restoration project.                The Department of Commerce, through ITA, is charged with pro­
We may also focus on NOAA’s coral reef, aquaculture, and marine                  moting trade, opening overseas markets to American firms, and
debris responsibilities; expansion of the tsunami detection and warn­            ensuring compliance with U.S. laws designed to protect U.S. in­
ing system; and the proposed Integrated Ocean Observing System.                  dustry from unfair competition from imports. As foreign export­
                                                                                 ers continue to spawn aggressive strategies targeting lucrative
Our series of reviews of salmon recovery programs continued                      American markets, ITA’s mission becomes ever more difficult and
during this semiannual period with audits of three more programs                 the need for a strong response, imperative.
funded by NOAA’s Pacific Coastal Salmon Recovery Fund. As
with the audits we detailed in our September 2004 semiannual                     During this semiannual period, we assessed ITA’s management of
report (pages 31-32), we questioned significant costs and noted                  the administrative review program for antidumping6 duty orders,
administrative weaknesses in two of the programs we reviewed.                    a function of the agency’s Import Administration (IA). Adminis­

                                                                                 6
5
 U.S. Department of Commerce Office of Inspector General, A Better Strategy Is    The U.S. antidumping statute is designed to prevent foreign firms from selling a
Needed for Managing the Nation’s Master Address File, Report Number OSE­         good in the United States at prices below those at which the good is sold in their
12065/September 2000.                                                            home market, or, in some limited instances, below the cost of production.




6                                                                                              U.S. Department of Commerce/Office of Inspector General
                                                                                                           Major Challenges for the Department




trative reviews determine the final duty rates on imports from a        NDAA Reviews
specific country that have been found previously to be dumped in
U.S. markets. We found, among other things, that the agency needs       The National Defense Authorization Act (NDAA) for Fiscal Year
to strengthen its policies, procedures, and standards for conduct­      2000, as amended, directed the inspectors general of Commerce,
ing these reviews and improve several administrative practices (see     Defense, Energy, and State, in consultation with the directors of
page 21).                                                               Central Intelligence and the Federal Bureau of Investigation, to
                                                                        report to Congress annually (through 2007) on the adequacy of
In upcoming reporting periods, we plan to assess the Department’s       export controls and counterintelligence measures in preventing
efforts to expand U.S. market opportunities and overcome trade          the acquisition of sensitive U.S. technology and information by
barriers in some of the most difficult and potentially rewarding        countries and entities of concern.
foreign markets—China, Russia, and perhaps some South Ameri­
can countries. We will continue to monitor the effectiveness of         To meet NDAA’s FY 2005 requirement, we assessed BIS’ licens­
overseas posts and domestic U.S. export assistance centers in help­     ing process for chemical and biological commodities to determine
ing U.S. companies compete for market share abroad, assess cus­         whether the process is timely, complies with statutory and regula­
tomer satisfaction with ITA products and services, and evaluate         tory requirements, and considers the cumulative effect of prior
ITA’s export success reporting—one of its key performance mea­          technology transfers to end users. We also assessed information
sures. Our inspections of post activities in Turkey, Greece, and        sharing among the various agencies involved in reviewing licenses,
India and our reviews of export assistance centers in Chicago, the      their process for resolving disputes, and BIS’ procedures for re­
Pacific Northwest, and Philadelphia identified problems with ex­        vising the Commerce Control List. (See page 11.)
port success reporting, including inaccurate and overstated U.S.
value and unverifiable success stories (see March and September
2004 Semiannual Reports, pages 24 and 25, respectively). In re­         EXAMPLES OF DUAL-USE TECHNOLOGIES
sponse, ITA has taken a number of steps to improve quality con­
trols, oversight, and management accountability for the accuracy         Technologies           Civilian Use              Military Use
and integrity of export success reports. We will continue to moni­
tor these areas, including ITA’s financial controls and resource
                                                                         Remote sensing         Earth observation         ‘Spy’ satellites for
management, and will report on the Department’s efforts to re­           (optical radar)        satellites for weather    combat intelligence,
solve issues we identify.                                                                       forecasting,              arms control
                                                                                                mapping, etc.             verification, etc.
We also intend to build on our survey work at the Import Admin­
istration by looking at the verification process for antidumping
                                                                         Advanced               Space transportation      ICBMs
cases, and to assess ITA’s new Manufacturing and Services Unit           ballistics and         systems (launchers);      (Intercontinental
and its efforts to enhance competitiveness of U.S. manufacturers         missiles               sounding rockets          Ballistic Missiles);
and industry.                                                                                   (for microgravity         short range surface-
                                                                                                experiments)               to-surface missiles

                                                                         Biotechnologies        Aerospace medicine; Biological weapons
Challenge 7                                                                                     medical research

ENHANCE EXPORT CONTROLS                                                  Satellite              Telephony, Internet,      Military
FOR DUAL-USE COMMODITIES                                                 communications          broadcasting             communications

Commerce must balance the nation’s economic interests in in­            Source: www.futuraspace.com/Dual_Use_fact_sheet.htm.
creasing trade with the realities of national security by controlling
the export of technology and materials that have both civilian and
military applications. The Bureau of Industry and Security (BIS)        NDAA for FY 2001 requires the IGs to also report on the status of
oversees the federal government’s export licensing and enforce­         recommendations made in prior-year reviews. This year’s follow-
ment system for these dual-use commodities, and we devote con­          up covered reviews conducted from 2001 through 2004 (no rec­
siderable, ongoing attention to its efforts. Rogue countries and        ommendations remain outstanding from our FY 2000 report). We
terrorist groups pose great threats to U.S. national security and       were pleased to find that Commerce made progress on a number
foreign policy goals. A strong, effective export control system is      of outstanding issues, but some key recommendations remain
essential to keeping sensitive items and technology from those          unresolved (see page 13).
seeking weapons of mass destruction.




March 2005/Semiannual Report to Congress                                                                                                    7
Major Challenges for the Department




With regard to our 2004 NDAA review, which looked at whether
deemed export controls7 are effective in preventing the inappropri­
ate transfer of sensitive technologies to foreign nationals in the U.S.,
we are encouraged by BIS’ bolstered commitment to enhancing its
administration and enforcement of these controls. We believe the
bureau’s increased attention to the problems we identified—along
with greater awareness among industry, academia, and federal re­
search laboratories—will result in greater compliance and reduce
opportunities for inappropriate transfer of protected technology and
information. (See March 2004 Semiannual Report, page 14.)

BIS must remain vigilant in targeting federal licensing and en­
forcement efforts on those exports that present the greatest prolif­
eration and national security risks and in streamlining or elimi­
nating controls that unnecessarily hamper trade. Legislation to
replace the expired Export Administration Act is essential to these
efforts and to bolstering BIS’ regulatory authority, stiffening pen­
alties, and demonstrating America’s commitment to a strong, ef­
fective system of export controls.



Challenge 8
ENHANCE EMERGENCY
PREPAREDNESS, SAFETY, AND
SECURITY OF COMMERCE
FACILITIES AND PERSONNEL                                                            The Department has assembled and equipped teams of volunteer em­
                                                                                    ployees at its facilities to implement evacuation procedures in case of an
Tense international conditions have increased America’s need to                     emergency.
prepare for physical threats to U.S. government facilities and per­                 Source: OIG.
sonnel. For Commerce—with more than 35,000 employees in
hundreds of facilities worldwide—the task of safeguarding de­                       departmental guidance on implementing effective preparedness pro­
partmental personnel and property is daunting. After our April                      grams and insufficient oversight of bureau compliance with estab­
2002 report on the status of Commerce’s emergency prepared­                         lished policies and procedures, which may undercut its efforts. We
ness and security programs identified significant vulnerabilities,                  will report the final results of this review in our next semiannual.
we added this issue to our list of top management challenges.

During this reporting period, we began reviewing the Department’s
progress in addressing the concerns raised in our 2002 report and
                                                                                    Challenge 9
examined several key initiatives it has undertaken. Current policy
                                                                                    CONTINUE TO STRENGTHEN
assigns Commerce’s Office of Security (OSY) responsibility for over­
seeing and coordinating emergency preparedness, but leaves primary                  MANAGEMENT CONTROLS AND
responsibility for implementing site-specific measures with the bu­                 SYSTEMS
reaus and facility managers. We found that OSY more than tripled
the number of risk assessments it conducted in fiscal year 2004.                    Commerce has significantly improved its financial management
                                                                                    over the past decade: it has received unqualified opinions on its
Our preliminary findings also indicate that the Department has im­                  consolidated financial statements for 6 consecutive years, imple­
proved building security, access controls, and the response capa­                   mented the Commerce Administrative Management System (now
bilities of its security guard forces. But we have noted inadequate                 called Commerce Business Systems), and substantially complied
                                                                                    with the Federal Financial Management Improvement Act. These
7
  According to the Export Administration Regulations, any release to a foreign
                                                                                    successes reflect management’s commitment to and success at
national of technology or software subject to the regulations is “deemed to be an   addressing the findings of deficient internal controls and financial
export to the foreign national’s home country.”                                     management systems identified in our audits and other reviews.



8                                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                      Major Challenges for the Department




 EXCERPT: Dec. 21, 2004, Transmittal Letter for Circular
             ment programming and spending. Performance budgeting—as
 No. A-123, Revised, from the Office of Management and
               implemented by OMB—is based on a similar assumption: that by
 Budget
                                                              putting performance information alongside budget amounts, fund­
                                                                      ing choices focus on program results and budget decision-making
 Actions Required. Agencies and individual federal managers           improves. The success of either approach relies on the quality of
 must take systematic and proactive measures to (i) develop           reported data.
 and implement appropriate, cost-effective internal control for
 results-oriented management; (ii) assess the adequacy of
 internal control in federal programs and operations; (iii)           Though the Department has strengthened its performance report­
 separately assess and document internal control over financial       ing under GPRA, our audits of six Commerce operating units con­
 reporting consistent with the process defined in Appendix A;         tinue to identify the need for enhanced internal controls to ensure
 (iv) identify needed improvements; (v) take corresponding
           that performance measures are appropriate and understandable,
 corrective action; and (vi) report annually on internal control

 through management assurance statements.
                            and reported data is accurate and reliable for making funding de­
                                                                      cisions.

Federal law requires agencies to prepare and disseminate finan­       The Department is reviewing its performance and data validation
cial information, including audit reports on their financial state­   processes in response to our findings and recommendations. It
ments, to enable Congress, agency executives, and the public to       has developed a new quarterly monitoring process that examines
assess an agency’s operational and program management and to          performance data and the measures themselves. The process re­
determine whether its financial management systems comply with        quires bureau under secretaries to attest to the validity of data and
legislative mandates. But reliable financial reporting and effec­     verify that the measures and reported information accurately re­
tive, efficient program operations depend on strong internal con­     flect a bureau’s accomplishments.
trols. And beginning in FY 2006 under the revised OMB Circular
A-123, agencies must assess internal controls over financial re­      We are now conducting our ninth audit specifically aimed at per­
porting, document those controls and the assessment process, and      formance measurement and reporting—this time at the Minority
provide an assurance statement on the effectiveness of internal       Business Development Agency (MBDA). Our earlier reviews of
control over financial reporting in their annual Performance &        MBDA grant recipients found varying degrees of noncompliance
Accountability Report.                                                with performance guidance and inadequate management controls
                                                                      for ensuring that claimed performance is accurate, properly docu­
We will continue to monitor a range of financial management is­       mented, and occurs within specified time frames. We have initi­
sues, including the Department’s efforts to implement the new A­      ated a follow-up review of our prior audits to (1) assess bureau
123 requirements, improve internal controls, and achieve other        and departmental efforts to address identified deficiencies and
operating efficiencies identified in the annual audit management      strengthen performance measurement, and (2) determine whether
letter. We will also continue to monitor the International Trade      additional efforts are needed to ensure that reported performance
Administration’s progress toward complying with OMB Circular          results are reliable and meaningful.
A-25 requirements for fully recovering the costs of products and
services it provides, and the use of Commerce Business Systems
to conduct financial and budgeting operations.                         EXCERPT: Government Performance Results Act of 1993

                                                                       SECTION 2. FINDINGS AND PURPOSES.
                                                                       (a) Findings. The Congress finds that­
CHALLENGE 10                                                           (1) waste and inefficiency in federal programs undermine the
                                                                       confidence of the American people in the government and
CONTINUE TO IMPROVE THE                                                reduce the federal government’s ability to adequately address
DEPARTMENT’S STRATEGIC                                                 vital public needs;
PLANNING AND PERFORMANCE                                               (2) federal managers are seriously disadvantaged in their

MEASUREMENT IN ACCORDANCE                                              efforts to improve program efficiency and effectiveness,

                                                                       because of insufficient articulation of program goals and

WITH THE GOVERNMENT                                                    inadequate information on program performance; and

PERFORMANCE AND RESULTS ACT                                            (3) congressional policymaking, spending decisions and
                                                                       program oversight are seriously handicapped by insufficient

The basic tenet of GPRA is that measuring performance will in­         attention to program performance and results.

form funding decision-making and ultimately improve govern­




March 2005/Semiannual Report to Congress                                                                                                9
10   U.S. Department of Commerce/Office of Inspector General
                    BUREAU OF INDUSTRY
                    AND SECURITY

                                     Review Finds Few Problems with Licensing

  T
          he                              Process for Chemical and Biological
          Bureau of
          Industry and Security                Commodities
  is primarily responsible for
  administering and enforcing the nation’s           To comply with the FY 2005 requirement of the National Defense Authorization
  system for controlling exports of sensitive           Act (NDAA), the inspectors general at the departments of Commerce, Defense,
  dual-use goods and technologies. BIS’ major             Energy, State, Agriculture, Health and Human Services, and Homeland Secu­
  functions include formulating and implementing            rity, in consultation with the director of Central Intelligence, evaluated the
  export control policy; processing export license            U.S. export licensing process for chemical and biological commodities to
  applications; conducting various policy, technical,           determine whether current practices help deter the proliferation of chemi­
  and economic analyses; promulgating regulations;                cal and biological weapons.

  conducting industry outreach; and enforcing the

  Export Administration Act and regulations. BIS is                 Within Commerce, we evaluated BIS’ licensing process for these com­
  divided into two units:                                            modities to determine whether the process is timely, complies with
                                                                     statutory and regulatory requirements, and considers the cumulative
  Export Administration implements U.S. export control                effect of prior technology transfers to end users. We also assessed
  and nonproliferation laws and policies through export               whether the various agencies involved in license review share infor­
  licensing, commodity classifications, and advisory                   mation among themselves and whether the dispute resolution pro-
  opinions; technical, economic, foreign availability, and             cess is working. We did not evaluate the overall outcome of the li­
  policy analyses; promulgation of regulations; and                    censing process and whether countries or entities were able to ille­
  industry outreach. It also conducts various defense                  gally acquire biological or chemical commodities by circumventing
  industry activities and enforces industry compliance                the licensing process altogether.

  with arms control treaties.

                                                                    Our Findings
  Export Enforcement participates in reviews of
  export license applications and conducts criminal         We found that BIS is catching some potentially problematic exports
  and administrative investigations relating to           through its licensing process and denied 25 applications for chemical and
  the export control portions of the Export              biological commodities in FY 2003. We also noted the following:
  Administration Act and regulations. It also
  administers and enforces the antiboycott            Licensing process generally resulted
  provisions of the act and regulations.            in timely decisions

                                                    We compared 90 of the 1,803 chemical and biological license applications submitted in
                                               FY 2003 against BIS’ guidance for reviewing and processing them, and found the average
                                           time to process those that are not disputed by the other U.S. licensing agencies was 43.7 days—
                                      slightly higher than the agency’s goal of 40 days. (Defense, State, and Energy all completed their
                                 review of BIS applications within the 30-day deadline mandated by Executive Order 12981.)

             Executive Order 12981 and the Export Administration Regulations do not set explicit time requirements for the completion
of license applications approved by the interagency group, but not escalated. The executive order and the regulations only provide time
frames for escalated cases after the initial interagency referral process is completed. Currently, licensing officers have no time require­
ment for processing license applications once they are returned from interagency review. Setting internal BIS processing time frames
could encourage timelier disposition of undisputed license applications.




March 2005/Semiannual Report to Congress                                                                                             11
Bureau of Industry and Security




Interagency review of license
applications needs to sustain
improvements in timeliness

License applications for chemical and biological commodities also
are reviewed by the Chemical and Biological Weapons Control
Group, an interagency body of working-level representatives from
State, Commerce (BIS), Defense, CIA, and Energy, commonly
known as SHIELD. Should the agencies not reach agreement at
SHIELD, applications are escalated to the operating committee,
which has 14 days to reach a decision under Executive Order
12981. The committee has improved its time to render decisions
in recent years, but still rarely meets the 14-day requirement. In
FY 2003, the committee averaged 51 days to reach a decision,
but reduced that average to 22 days in FY 2004. The committee
should work to sustain this significant improvement in the timeli­
ness of its decisions.

Recent improvements in the timeliness
                                                                      Items on the Commerce Control List subject to Export Administration Regu­
of changes to the Commerce Control                                    lations range from thermal switches to electric cattle prods to plastic hand­
List need to be maintained                                            cuffs.
                                                                      Sources: Thermal switches—www.thermalswitch.com/ts250.shtml.

The Australia Group—which consists of the European Commis­            Cattle prods—www.redhillgeneralstore.com/A24333.htm.

sion and 38 member countries—works to prevent the proliferation       Plastic handcuffs—www.sillyjokes.co.uk/wacky/props/plastic-handcuffs.html.

of chemical and biological weapons, and typically recommends
new chemical and biological items for control each year. But for
the past 7 years, BIS has taken an average of 10 months after re­
ceiving the group’s recommendations to publish newly regulated        Unfortunately, the group’s policy on the reporting of denials is not
items on the Commerce Control List. BIS and the other licensing       detailed, so State interprets the policy one way and Commerce
agencies cannot disclose such items to U.S. companies and can­        another. We recommend that BIS ask the State Department to seek
not prevent newly regulated items from being exported until the       a ruling from the Australia Group chair on which denials should
items are published on the list. Changes from the Australia Group’s   be sent to the group and, based on the response, work with all the
June 2004 meeting, however, were published on the list in just 6      licensing referral agencies to develop and implement a written
months. BIS officials say there were special reasons for speeding     policy and procedures for handling the group’s denial notification
up the publication process in this instance. We recommend that        process.
BIS do whatever is necessary to maintain the relatively fast publi­
cation of the group’s guidelines and rule changes that impact the     BIS outreach efforts mainly target the
Commerce Control List.                                                biological exporting community and
                                                                      could be expanded
Australia Group should be notified
of all license denials to trigger                                     Outreach to the exporting community is a critical component of
“no undercut” policy                                                  BIS’ mission to build awareness of and compliance with export
                                                                      controls. BIS has a robust outreach program to the biological ex­
Under the Australia Group’s “no undercut” policy, members agree       porting community, but outreach to the chemical exporting com­
not to approve a license for an identical sale that was previously    munity has been limited. BIS should explore ways to increase its
denied by another member without a consultation. The Depart­          outreach to the chemical community. The agency should also seize
ment of State, as the lead U.S. representative to the Australia       opportunities to conduct outreach to entities that work with select
Group, is responsible for submitting license denials to the group,    agents and toxins on the Commerce Control List and that are reg­
but only submits denials that involve exports to nongroup coun­       istered with the U.S. Department of Agriculture’s Animal and Plant
tries. State’s rationale for its decisions is not documented, which   Health Inspection Service (APHIS) and the U.S. Department of
leads to confusion. Since August 2002, Commerce and State have        Health and Human Services’ Centers for Disease Control and Pre­
disagreed about the U.S. policy for submitting denials to the Aus­    vention (CDC).
tralia Group.




12                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                                   Bureau of Industry and Security




BIS’ export enforcement office needs to                                 March 2004
act on the Treaty Compliance Division’s
investigative referrals                                                 Last year’s review looked at the effectiveness of deemed export
                                                                        controls in preventing the transfer of sensitive technology to for­
BIS’ Treaty Compliance Division helps ensure U.S. industry com­         eign nationals in the United States. We made a total of 20 recom­
pliance with the Chemical Weapons Convention and other interna­         mendations: 7 each to BIS and NIST, 5 to NOAA, and 1 to the
tional treaties. One of the convention’s requirements imposed on        Office of the Secretary. These mainly pertained to weaknesses in
industry is the submission of end-use certificates, within 7 days of    export control regulations and policies, as well as bureau compli­
the date of export, that state the types and quantities of chemicals    ance with licensing requirements. BIS has completed action on 2
being exported, the intended end-use for the chemicals, and certifi­    of the issues we identified, and is actively working with industry,
cation that the chemicals will only be used for purposes not prohib­    academia, and federal research laboratories to address other key
ited by the convention. Between FY 2002 and 2004, the Treaty            recommendations. NIST has completed action on 3 recommenda­
Compliance Division identified 13 instances in which companies          tions and made significant progress in addressing the 4 that re­
did not submit end-use certificates to BIS, and referred all 13 cases   main open. Neither NOAA nor the Office of the Secretary has
to BIS’ Office of Export Enforcement (OEE) for investigation.           completed action on the recommendations pertaining to them.

The Office of Export Enforcement opened nine investigations on
cases referred by the Treaty Compliance Division, but had not given
                                                                        March 2003
feedback to the division about the status of any of them. OEE of­
                                                                        This review made 55 recommendations to BIS and 4 to ITA re­
ficials reported to us that three of these cases had been closed—
                                                                        garding their efforts to enforce export control laws and regula­
two of them prematurely and would thus be reopened. The re­
                                                                        tions, including those involving investigative processes, interac­
maining six cases remained open, with no action taken. We rec­
                                                                        tions with other law enforcement agencies and the intelligence
ommended that OEE keep the division informed about the status
                                                                        community, license determinations, monitoring of compliance with
and outcome of investigations, and that the division track its refer­
                                                                        license conditions, outreach to U.S. exporters, and end-use checks.
rals to OEE so it can follow up if it has not received status reports
                                                                        All but 6 BIS recommendations have been resolved. Those open
after a specified period of time.
                                                                        deal primarily with checking exporters’ prior compliance history
                                                                        when processing their new license applications, improving inter­
Agency Response                                                         agency enforcement efforts, automating licensing referrals, and
                                                                        expanding industry outreach.
BIS officials agreed with all of our recommendations and noted
that some issues, such as publication of Australia Group guide­
lines and rule changes for inclusion on the Commerce Control
                                                                        February 2002
List, still need clearance by the departments of State and Defense,
                                                                        In this report, we focused on BIS’ plans for and progress toward
and prior to publication, the Office of Management and Budget.
                                                                        modernizing its Export Control Automated Support System
In other areas, such as outreach to the chemical exporting commu­
                                                                        (ECASS) for dual-use export licensing. Four of our 13 recom­
nity and the APHIS and CDC registered entities, BIS has already
                                                                        mendations remain open. These involve pressing project needs:
begun exploring ways to implement the recommendations.
                                                                        identifying and securing adequate funding, determining system
(Office of Inspections and Program Evaluations: IPE-16946)
                                                                        and security requirements, completing the target architecture, and
                                                                        selecting a location to house the system.


Export Control Follow-up                                                8
                                                                         All recommendations from our March 2000 review, Improvements Are Needed in
Review Identifies Open                                                  Programs Designed to Protect Against the Transfer of Sensitive Technologies to
                                                                        Countries of Concern (IPE-12454), have been addressed. Open recommendations
Recommendations                                                         remain in the following reports: March 2001, Management of the Commerce Con­
                                                                        trol List and Related Processes Should Be Improved (IPE-13744); February 2002,
The National Defense Authorization Act requires the Office of           BXA Needs to Strengthen its ECASS Modernization Efforts to Ensure Long-Term
                                                                        Success of the Project (IPE-14270); March 2002, Interagency Review of Federal
Inspector General to report annually to Congress on the status of       Automated Export Licensing Systems (D-2002-074); March 2003, Improvements
export control recommendations made in prior-year OIG reviews.          Are Needed to Better Enforce Dual-Use Export Control Laws (IPE-15155); March
This year’s follow-up covered annual reviews dating back to 2000.8      2004, Deemed Export Controls May Not Stop the Transfer of Sensitive Technology
We noted that the Department has made progress on a number of           to Foreign Nationals in the U.S. (IPE-16176).
outstanding issues. However, recommendations remain open in
all but the March 2000 report, for a total of 30 open items.




March 2005/Semiannual Report to Congress                                                                                                       13
Bureau of Industry and Security




March 2002                                                           March 2001

In addition to the February report we issued on BIS, the inter­      Two of 14 recommendations remain open from our review of BIS
agency OIG review team issued a report that contained four rec­      policies and procedures for designing and administering the Com­
ommendations for the bureau. Three of these remain open. They        merce Control List: BIS should work with the National Security
involve coordinating automation efforts among the various licens­    Council to assess and possibly revise commodity classification
ing agencies, establishing a common repository for all unclassi­     guidance and procedures, and provide State with copies of the fi­
fied licensing data records, and tracking and reporting on licens­   nal determinations on commodity classifications that it reviews.
ing system development.                                              (Office of Inspections and Program Evaluations: IPE-17361)




14                                                                             U.S. Department of Commerce/Office of Inspector General
                                   ECONOMIC DEVELOPMENT
                                   ADMINISTRATION

                                   Audit Questions the Value of Utah

  T
           he                               Grantee’s In-Kind Match
           Economic
           Development                             A Utah economic development organization received an EDA public works grant in
  Administration was established                      2001 to help rural communities compete for technology-based jobs outsourced by
  by the Public Works and Economic                      businesses located anywhere in the world. Known as Utah Smart Sites, the initia-
  Development Act of 1965 to generate                      tive seeks to bring skilled employment opportunities to the state’s rural resi­
  new jobs, help retain existing jobs, and                    dents via high-speed Internet connections. The EDA grant was for the pur-
  stimulate commercial and industrial growth                    chase of computers and related equipment for Smart Site facilities where
  in economically distressed areas of the United                 residents would be trained and interface directly with clients to offer such
  States. EDA continues to fulfill this mission                    services as software development and testing, database management, web
  under the authority of the Economic Development                   site maintenance, graphics design, remote transcription, and data entry.
  Administration Reform Act of 1998, which                           The grant originally covered 12 sites but was expanded to cover 21 in
  introduced the concept of Comprehensive Economic                    2004. Total estimated cost of the project was $1 million—with the
  Development Strategies, a local planning process                     federal share capped at $500,000 and the state providing a $500,000
  designed to guide the economic growth of an area.                     match. When the project concluded in September 2004, final costs
  Based on these locally and regionally developed                       claimed were $1,000,397, and EDA had reimbursed the economic
  strategies, EDA works in partnership with state and                   development organization for the maximum federal share.
  local governments, regional economic development 

  districts, public and private nonprofit organizations,                Our audit originally ques­

  and Indian tribes to help distressed communities                      tioned $218,000 of the

  address problems associated with long-term economic                   state match—roughly half

  deterioration and recent, severe economic dislocations,              the stated value of an in-

  including recovery from the economic impact                          kind donation of educa­

  of natural disasters, the closure of military                       tional products and user li­

  installations and other federal facilities, changes                censes—because the recipi­
 Source: www.smartsites.utah.gov/. 

  in trade patterns, and the depletion of natural                  ent could not document how
  resources. EDA provides eligible recipients                    the claimed value was deter-

  with technical assistance, as well as grants                  mined, which Smart Sites received the donations, and whether any sites 

  for public works and economic                               actually used them. Federal regulations require such documentation for in-

  development, planning, training and                      kind contributions that count toward a recipient’s cost-share to ensure amounts 

  research, and economic adjustment.                    claimed are reasonable and necessary for performance of the project. During our 

                                                   audit fieldwork, we located some of the donated items at one site. Most of it re­
                                                 mained unused, and the site administrator stated it probably never would be.

                                        We also noted a minor administrative deficiency in a memorandum of understanding (MOU)
                                    between the organization and one of the counties participating in the project: the MOU referenced
                               only two county Smart Sites as having equipment purchased with grant funds when there were actually
                      five sites.

In response to our finding concerning the valuation, the recipient provided additional documentation that fully supported the $218,000
value of donated products. As a result, we recommended that EDA ensure the grantee adequately documents its matching share in the
future, as required by OMB Circular A-87. (Denver Regional Office of Audits: DEN-17065)




March 2005/Semiannual Report to Congress                                                                                              15
Economic Development Administration




Investigations                                                       carceration, followed by 3 years of supervised release. The offi­
                                                                     cial was also ordered to pay a total of $723,553 in restitution to the
                                                                     government, including $145,221 for losses sustained by an EDA-
RLF Administrator Sentenced for                                      funded revolving loan fund, which amount will be returned to the
Program Fraud and Conspiracy                                         agency. In addition, debarment proceedings have been initiated
                                                                     against the defendant and one of his co-conspirators to preclude
On October 7, 2004, the last of four local officials convicted of    them from receiving future federal contracts or financial assistance
conspiracy and fraud in connection with the administration of fed­   awards. The other two convicted officials have already been de­
eral grant funds awarded by EDA and other agencies to a munici­      barred—one for 10 years and the second for 3 years. (Alexandria
pal economic development organization was sentenced in U.S.          Resident Office)
District Court for the District of Massachusetts to 41 months’ in­




16                                                                              U.S. Department of Commerce/Office of Inspector General
                              ECONOMICS AND
                              STATISTICS ADMINISTRATION

                                    BEA, ESA, and Census Need Stronger

                                      Management Controls for Reimbursable

      T
             he
             Economics                   Activities and Direct Sales to the Public
             and Statistics
    Administration analyzes                       OIG reports have identified problems with departmental reimbursable activities, such as
    economic developments,                           agencies’ failure to recoup full costs or consistently comply with federal requirements.
    formulates policy options, and                      In addition to their congressional appropriations, the Economics and Statistics Ad-
    produces a major share of U.S.                        ministration (ESA) and its component bureaus—the Bureau of Economic Analy­
    government economic and demographic                     sis (BEA) and Census—generate revenue by conducting work for other federal
    statistics. The Chief Economist monitors                  agencies under reimbursable agreements and by selling products and services to
    and analyzes economic developments and                     the public (transactions commonly referred to as “fee-funded activities”). In
    directs studies that have a bearing on the                   FY 2004, the three agencies earned a combined total of roughly $247 million
    formulation of economic policy. ESA has                       from reimbursable activities and $4.5 million in sales to the public.
    two principal agencies:
                                                                   We completed two audits of reimbursable and fee-funded activities during
    Bureau of the Census is the country’s                          this reporting period—one at ESA headquarters and BEA, the other at the

    preeminent statistical collection and dissemination             Census Bureau. Our findings are detailed below.

    agency. It publishes a wide variety of statistical

    data about the nation’s people and economy,
                                                                   ESA and BEA

    conducting approximately 200 annual surveys,

    in addition to the decennial census of the U.S.

                                                                   ESA operates STAT-USA, a subscription service that offers customers
    population and the decennial census
                                                                  Internet access to business, economic, and trade statistics.9 , 10 STAT-USA
    of industry.
                                                                 assembles data from other government sources, prepares and distributes it
                                                                to the public,
    Bureau of Economic Analysis prepares,
                                                              and designs
    develops, and interprets the national
                                                             information
    income and product accounts
                                                           products. In FY

    (summarized by the gross domestic
                                                          2004, STAT-USA

    product), as well as aggregate
                                                       generated $1.5 mil-

    measures of international,
                                                    lion in sales. During the

    regional, and state economic
                                                 same period, BEA gener­

    activity.
                                              ated about $182,000 from

                                          sales of CD-ROMs containing

                                      Regional Input-Output Modeling

                                  System (RIMS) multipliers, which help

                             analyze the economic impacts of projects on

                       regions. In FY 2004, ESA earned $1.1 million from

               reimbursable services provided to other government agen­

cies and BEA earned $500,000.                                                    Source: www.stat-usa.gov/.



9
 Public Law 103-317, 108 Stat. 1744 (August 26, 1994) provided that “the Secretary of Commerce is authorized to disseminate economic and statistical data products . . .
and . . . charge fees necessary to recover the full costs incurred in their production.”

10
 OMB M-95-2 (the “Rivlin Memorandum”) was issued to provide agencies with guidance on reviewing their information dissemination practices for compliance with
OMB Circular A-130.




    March 2005/Semiannual Report to Congress                                                                                                                     17
Economics and Statistics Administration




Our audit sought to identify the agencies’ reimbursable and fee-funded    Our audit showed that the
services and products, and assess whether these activities are consis­    bureau’s reimbursable ac-             Census
tent with their statutory missions and comply with applicable laws        tivity and product sales are     Mission Statement
and regulations. We also examined whether the agencies had appro­         consistent with its mission.
priate and effective management controls over these activities.           Census fully documents its      The Census Bureau serves
                                                                          cost estimates for reim-        as the leading source of qual­
Reimbursable agreements. To recover the full costs of services            bursable projects and re-       ity data about the nation’s
provided to other federal agencies through reimbursable agree­            covers all costs for the        people and economy. We
ments, BEA and ESA bill customers for the direct costs incurred           work it performs.               honor privacy, protect confi­
and use an overhead rate to recover indirect costs. Commerce re­                                          dentiality, share our expertise
quires that agencies review and document the charges they assess,         However, 13 of the 43 re-       globally, and conduct our
but neither agency had reviewed or revised their overhead rates in        imbursable agreements           work openly.
3 years, and neither maintained documentation to justify the rates.       we reviewed, which had
In addition, one of the six BEA agreements we reviewed did not            estimated costs of about
contain the proper authorization to begin work, which could have          $132 million, either were not signed by an authorized official prior
jeopardized the agency’s ability to recover its costs from the cus­       to the initiation of work or did not have an accompanying tempo­
tomer. We recommended that both BEA and ESA develop proce­                rary work agreement in place before any work was done. Census
dures to establish, document, review, and adjust overhead rates. In       issues temporary agreements to authorize work within 30 days of
addition, BEA needs to ensure that it does not begin work for an­         receiving a letter of intent from the federal customer. The customer
other agency until an interagency agreement is properly executed.         then has up to 90 days to sign a formal agreement. For six projects
                                                                          that had temporary agreements, Census failed to obtain a signed
Fee-funded activities. BEA establishes the price of RIMS prod­            formal agreement from the customer within 90 days and thus al­
ucts on the basis of its labor costs (e.g., RIMS staff hourly salaries,   lowed the temporary agreements to remain in effect beyond the al­
leave and benefits, customer service, preparation of distribution pack­   lotted time period.
age) and overhead costs (management, administration, and space).
BEA had initially estimated the cost of producing a RIMS CD-ROM           Census officials informed us that they have met with major fed­
for FY 2005 at $283—which represented $160 for direct labor and           eral customers to discuss the timeliness requirements for signing
$123 for overhead (43 percent of the total price). We could not de­       interagency agreements, but we noted instances in which tempo­
termine how BEA arrived at this overhead amount or if it was rea­         rary agreements were still being signed more than 30 days after
sonable. In response to our audit, BEA agreed that overhead costs         receipt of letters of intent.
need closer scrutiny, reanalyzed its costs, and found that the FY
2004 CD cost was still appropriate and should be used in FY 2005.         Legal review policy unclear. The Census Bureau’s Policies and
                                                                          Procedures Manual states that all reimbursable agreements require
For STAT-USA, ESA must recover the costs of labor, equipment,
                                                                          legal review “unless specifically exempted,” but does not specify
supplies, rent, utilities, and overhead associated with operating
                                                                          what exemptions apply. None of the 43 reimbursable agreements
the service, but could not provide us with documentation of how it
                                                                          in our audit sample had received legal review. Bureau officials
calculated these costs or the associated subscription fees.
                                                                          informed us that agreements for certain special projects are ex­
                                                                          empt from legal review. However, these exceptions were not in­
Agency Response                                                           cluded in the Policies and Procedures Manual. We recommended
                                                                          that clear guidance as to which reimbursable agreements require
The Under Secretary of Economic Affairs accepted our recom­
                                                                          legal review be included in the Policies and Procedures Manual.
mendations and noted that some corrective actions had already
been taken. For example, both BEA and ESA have developed new
                                                                          Database ineffective tool for monitoring and documentation.
procedures to establish, document, and apply overhead rates
                                                                          Census’s Acquisition Division maintains a database of reimburs­
charged to customers in reimbursable agreements, and the agency
                                                                          able agreements but the information it contains is incomplete and
has recalculated these rates with the latest data. (Financial State­
                                                                          its usefulness for monitoring reimbursable activity is limited.
ments and Accountability Division: FSD-16824-5-0001)
                                                                          In addition, the bureau does not maintain all required documenta­
Census Bureau                                                             tion pertaining to agreements in a centrally located official file
                                                                          and has not assigned responsibility for maintaining such files to
During FY 2004, the Census Bureau earned total revenue of ap­             any specific division.
proximately $246 million from reimbursable agreements with gov­
ernment agencies and roughly $2.9 million from product sales to            Readily accessible and complete documentation is essential to
the public.                                                               effectively monitor reimbursable work. The director of the Cen-



18                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                    Economics and Statistics Administration




sus Bureau should ensure that official reimbursable agreement files    Investigations
containing all required documentation are maintained.

                                                                       Assignment of Fictitious Census
Agency Response
                                                                       Contract Leads to Conspiracy
Census officials agreed that stronger management controls for re­      Charge
imbursable agreements are warranted, particularly in the areas of
policy, monitoring, and official files. They provided a plan of ac­    On February 2, 2005, a Louisiana businessman was charged in
tion to address issues such as late executions of interagency agree­   U.S. District Court for the Eastern District of Louisiana with con­
ments and have already corrected some problems (e.g., specifica­       spiracy to commit bank fraud, based on evidence developed by a
tion of which reimbursable agreements require legal clearance).        joint OIG/FBI investigation. To obtain a $6 million loan from a
(Financial Statements and Accountability Division: FSD-16824­          New Orleans bank, the defendant executed a security agreement
5-0002)                                                                that purported to pledge as collateral his company’s interest in the
                                                                       proceeds of an $18.5 million contract with the Census Bureau.
                                                                       Our investigation disclosed, however, that documents submitted
                                                                       to the bank to support the assignment were forged, and that no
                                                                       such contract actually existed. If convicted on the felony charge,
Audit Questions $8.5 Million                                           the defendant could face a substantial fine and up to 5 years’ im­
Billed Under Census Contract                                           prisonment. The trial is scheduled for April 2005. (Alexandria
for IT Services                                                        Resident Office)

In 1999 the Census Bureau awarded a Virginia IT services com­          Former Census Employee
pany an indefinite delivery/indefinite quantity contract to provide    Sentenced for Theft of
up to $150 million worth of information technology services to
the bureau and all departmental operating units. The 1-year con­
                                                                       Government Funds
tract was implemented through a series of task orders and included
                                                                       In our September 2004 Semiannual Report (page 48), we reported
the option of 12-month extensions through April 2004.
                                                                       the felony theft conviction of a Census employee, which resulted
                                                                       from a joint investigation with the U.S. Department of Agricul­
During this semiannual period, we audited 3 of the 32 task or­
                                                                       ture OIG. The investigation found that the defendant had falsely
ders awarded under the contract to determine whether costs billed
                                                                       reported the amount of income she received as a Census employee
by the firm were reasonable, allowable, and allocable under con­
                                                                       in order to qualify for and receive food stamps and child care
tract terms and conditions and federal regulations. After a series
                                                                       benefits from USDA. On December 15, 2004, she was sentenced
of amendments, estimated total costs for the 3 orders were $17
                                                                       in U.S. District Court for the District of Maryland to 3 years’ su­
million.
                                                                       pervised probation—including 6 months’ home detention with
                                                                       electronic monitoring—and 100 hours of community service, and
In all three audits, we found that the firm had failed to comply
                                                                       was ordered to pay $39,446 in restitution. Prior to her sentencing,
with numerous contract and federal requirements, which caused
                                                                       the defendant resigned from her position at Census. (Washington
us to question slightly more than $8.5 million in direct labor and
                                                                       Field Office)
reimbursable costs billed under the task orders. We recommended
that Census disallow and seek recovery of this entire amount, and
take various other actions to rectify the problems that permitted      Census Contractor Arrested for
the noncompliance and resulting unallowable billings.                  Theft from Government

Agency Response                                                        On March 1, 2005, OIG agents, working with local police, ar­
                                                                       rested a Census Bureau vendor in Elgin, Illinois, on state charges
The audit reports for the three task orders were provided to the       that he stole approximately $20,000 from the bureau over a period
agency incrementally. The findings and recommendations identi­         of approximately 8 months. Our investigation found that between
fied in the first report were common to all three. Census provided     January and August 2004, the vendor had billed more than 20
an action plan in January 2005 that included specific steps to ad­     fraudulent charges to a government purchase card account using
dress each of the findings. (Denver Regional Office of Audits: DEN­    online software. The theft went undetected for a period of time
16724-5-0001, 0002, and 0003)                                          because the purchase card was routinely used to pay the vendor




March 2005/Semiannual Report to Congress                                                                                             19
Economics and Statistics Administration




for legitimate services rendered to the bureau, so similar charges   At the time of his arrest, the defendant was charged with two counts
were initially overlooked when monthly statements were reviewed.     of unauthorized use of a credit card in violation of state criminal
The fraudulent charges were identified as a result of routine ran­   statutes. Further proceedings are pending.
dom audits conducted by the agency and were immediately re­
ported to OIG.                                                       The agency informed us that it has taken steps to reinforce the
                                                                     need for monthly reconciliation of billing information. (Alexan­
                                                                     dria Resident Office)




20                                                                              U.S. Department of Commerce/Office of Inspector General
                            INTERNATIONAL TRADE
                            ADMINISTRATION

                                              ITA’s Import Administration Can Further
                                              Improve Its Antidumping Administrative
     T
             he
             International                           Review Program
             Trade Administration
     is responsible for trade promotion                During this period, we assessed the Import Administration’s administrative review
     and policy issues associated with most             process for antidumping11 duty orders to determine whether the agency is meet-
     nonagricultural goods and services. ITA               ing its statutory requirements for completing these reviews; has sufficient
     works with the Office of the U.S. Trade                 policies, procedures, and guidance in place; and has adequate tools and
     Representative to coordinate U.S. trade policy.           controls to manage administrative reviews. Our findings are as follows:
     ITA has four principal units:
                                                                                   Import Administration meets most statutory
     Market Access and Compliance develops and
                                                                                    deadlines, but needs stronger management
     implements international economic policies of a bilat-                          and administrative controls to ensure
     eral, multilateral, or regional nature. Its main objectives                      continued compliance
     are to obtain market access for American firms and
     workers and to ensure full compliance by foreign nations                           Import Administration operates under specific time frames for
     with trade agreements signed with the United States.                               completing annual antidumping administrative reviews. Title 19,
                                                                                         Section 1675 of the U.S. Code requires the agency to make a
     Manufacturing and Services undertakes industry trade analy-
                                                                                         preliminary determination “within 245 days after the last day of
     sis, shapes U.S. trade policy, participates in trade negotiations,
                                                                                         the month in which occurs the anniversary of the date of publi­
     organizes trade capacity-building programs, and evaluates the
                                                                                         cation of the order or suspension agreement for which the re-
     impact of domestic and international economic and regulatory
                                                                                         view . . . is requested.”
     policies on U.S. manufacturers and service industries.

     Import Administration defends American industry against                            A 1993 OIG review found that 32 percent of the agency’s admin­
     injurious and unfair trade practices by administering the                         istrative reviews were late, but our recent survey found that the
     antidumping and countervailing duty laws of the United                           agency was meeting its deadlines for reviewing antidumping cases
     States and enforcing other trade laws and agreements                            most of the time. The agency extends statutory dates if deadlines
     negotiated to address such trade practices.                                    fall on weekends. According to agency management, deferring week­
                                                                                  end deadlines for case determinations to the next business day has
   U.S. Commercial Service promotes the export of                               been an accepted practice for many years. But this is not an official
   U.S. products and helps small and medium-                                   policy. The agency’s chief counsel’s office acknowledges that under a
   sized businesses market their goods and                                  strict interpretation of the statute, Import Administration does not have the
   services abroad. It has 100 domestic                                  flexibility to extend weekend deadlines.
   offices and more than 150 overseas
   posts in 84 countries.                              Import Administration has multiple management and administrative controls to
                                                   help it meet deadlines, such as the Case Management Database—the agency’s pri­
                                               mary system for calculating statutory deadlines and tracking progress toward meeting
                                           them—and managers’ weekly status reports, but these tools could be strengthened. The Case
                                        Management Database, for example, contains some erroneous information. In addition, the data­
                                   base does not record the actual dates of signature for determinations. Import Administration used
                             information generated by the database to report in the Department’s FY 2004 Annual Performance Plan that
it met case deadlines 100 percent of the time in FY 2002. But the database does not reconcile statutory deadline dates or target dates


11
 The U.S. antidumping statute is designed to prevent foreign firms from selling a good in the United States at prices below those at which the good is sold in their home
market, or in some limited instances below the cost of production.




 March 2005/Semiannual Report to Congress                                                                                                                         21
International Trade Administration




against the actual dates that determinations are signed, so it is not       which confirm IA’s findings in an antidumping review, were mark­
really providing reliable information for the agency to use to de­          edly different in content and format. This lack of standardization
termine whether it always completes cases on time. If Import Ad­            produces reports of varying quality.
ministration wants to continue using the database to generate per­
formance information, the system must provide a report based on             Though Import Administration does have an antidumping manual,
the determination’s actual rather than target signature dates.              it does not reflect current review practices. Published in 1998, the
                                                                            manual has been outdated by several policy bulletins and court
Policies, procedures, and standards need                                    decisions issued subsequently. The agency should develop an in­
improvement                                                                 ternal operations handbook, and include in it a standard template
                                                                            for the content and format of verification reports. IA also should
Import Administration does not have adequate written guidance               update its antidumping manual to reflect current review practices.
or an operations handbook that gives systematic instructions for
conducting administrative reviews, defines staff roles and respon­          Management of official files needs attention
sibilities in the process, and details agency practices. We could
not find any document containing the necessary information in a             Import Administration is required to keep official files for 20 years
concise and easy-to-use format. In addition, verification reports,          after a case is closed and to maintain the public version for 5 years
                                                                            after case closure.12 Files for cases challenged in court must be
                                                                            kept indefinitely.
                                  Apr 05, 2005
                                                                            IA’s official case files are inadequately maintained. Our review of
 Separate Rates and Combination Rates in Antidumping Investi­               a sample of official case files, which are stored primarily in the
       gations involving Non-Market Economy Countries                       Department’s Central Records Unit, found that many were incom­
                  Announcement of Change in Practice                        plete—devoid of Federal Register notices, decision memoranda,
                                                                            and other required documentation. In addition, most electronic
                              Policy Bulletin 05.1                          media files (e.g., data sets and margin calculations), which are
                                                                            considered part of the official case documentation, were not main­
                                  Mar 25, 2005
                                                                            tained in the required location.
             Superalloy Degassed Chromium from Japan
                Initiation of Antidumping Investigation                     In addition, official files in the Central Records Unit at Commerce
                                                                            headquarters are vulnerable to fire because the unit does not have
                                    Factsheet
                                                                            an automatic fire suppression system.
                                  Mar 25, 2005
                                                                            The agency hopes to resolve these issues and improve its compli­
        Ishar UAE Scope Ruling on Whether Stainless Steel                   ance with records management requirements with the implemen­
         Bar is Subject to the Scope of the Antidumping and
                                                                            tation of an electronic documents management system recently
         Countervailing Duty Orders on Stainless Steel Wire
                                                                            purchased by ITA. Import Administration estimates that phase I of
                     Rod from Subject Countries
                                                                            the system will be operational by late 2005.
            Final Scope Ruling (signed: February 7, 2005)
                                                                            Computer support needs restructuring
                                  Mar 16, 2005

          Bottle-Grade Polyethylene Terephthalate Resin                     In August 2004, Import Administration completed a reorganiza­
           from India, Indonesia, Taiwan, and Thailand                      tion of its antidumping and countervailing duty operations, but
    Final Antidumping and Countervailing Duty Determinations                left management of computer support staff unchanged. Previously,
                                                                            each of the three Deputy Assistant Secretaries (DASs) for Opera­
                                    Factsheet                               tions had a two-person computer support team that trained ana­
                                  Mar 11, 2005                              lysts to use statistical analysis software for calculating dumping
                                                                            margins. Each team reported to a different office director who in
             Steel Import Monitoring and Analysis System                    turn reported to one of the three Deputy Assistant Secretaries. Under
                          Interim Final Rule                                the reorganization, the office directors now report to only one
                                                                            Deputy Assistant Secretary, but the three computer support staff
                 FR Notice                               Factsheet
                                                                            teams are still separate. Having the computer support staff report
The Import Administration’s antidumping and countervailing duty decisions
span a wide range of issues of great importance to American businesses.     12
                                                                             Based on ITA’s records retention policy and National Archives and Records Ad­
Source: http://ia.ita.doc.gov/ia-highlights-and-news.html.                  ministration guidelines.




22                                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                                          International Trade Administration




to one manager could help improve consistency in service and            or legal holidays, establishing a standard process for vetting and
support and facilitate the best allocation of resources.                resolving cases in a timely manner, drafting instructions to update
                                                                        the case management database, and updating the Antidumping
Analyst training program should be improved                             Manual to reflect changes in IA practice. (Office of Inspections
                                                                        and Program Evaluations: IPE-16952)
Import Administration offers three training modules for new ana­
lysts (new analyst training, verification, and statistical analysis
software training), but no formal training for existing analysts. New
analysts say they are overwhelmed by the amount of information
given in the training classes. More experienced analysts complain
                                                                        Investigations
about a lack of continuing career development. Both situations
may negatively impact the agency’s operations. Import Adminis­          Multiple Arrests in Visa Fraud
tration should reassess its training program to ensure that it meets    Investigation
the needs of new and existing analysts, particularly in light of the
large number of vacancies (87) it anticipated filling at the time of    In February 2004, the Diplomatic Security Service (DSS), U.S.
our review.                                                             Department of State, requested that OIG join an ongoing investi­
                                                                        gation, which had disclosed the possible involvement of an ITA
                                                                        employee in visa fraud. During the first week of March 2005, OIG
Agency Response
                                                                        agents participated along with personnel from DSS and the Bu­
                                                                        reau of Immigration and Customs Enforcement in the arrest of
Import Administration is taking steps to address the report’s rec­
                                                                        four foreign nationals, who will be held as material witnesses in
ommendations, such as publicly clarifying its practice of rolling
                                                                        the case. (Seattle Resident Office)
to the next business day statutory deadlines that fall on weekends




March 2005/Semiannual Report to Congress                                                                                              23
24   U.S. Department of Commerce/Office of Inspector General
                       NATIONAL OCEANIC
                       AND ATMOSPHERIC
                       ADMINISTRATION
                                    Recommendations in Consultant Study Lack

  T                                       Support for Changes at NOAA
          he
          National
          Oceanic and                            In September 2003, NOAA contracted with the management consulting firm of Booz
  Atmospheric Administration                        Allen Hamilton, Inc., for a comprehensive analysis of its finance and administra­
  studies climate and global change;                  tive services. The purpose of the study was to evaluate the performance of these
  ensures the protection of coastal oceans and           functions, recommend cost-effective service improvements, and develop a
  the management of marine resources; provides              plan for implementing the recommended changes. We reviewed how NOAA
  weather services; and manages worldwide                     is using the study’s results and whether its findings, assumptions, con-
  environmental data. NOAA does this through the                clusions, and recommendations are adequately supported. Our audit did
  following organizations:                                       not assess whether the recommended functional management struc-
                                                                   ture was an appropriate choice for NOAA.
  National Weather Service reports the weather of
  the United States and provides weather forecasts
  and warnings to the general public.                                 Validity of study’s conclusions about costs,
                                                                        savings, staffing, and organizational structure
  National Ocean Service issues nautical charts; performs               could not be verified
  geodetic surveys; conducts research; and develops policies
  on ocean mining and energy.                                            Although Booz Allen’s reports indicated extensive data gather­
                                                                         ing and analyses, we concluded that the study’s assumptions, find-
  National Marine Fisheries Service conducts a program                   ings, and recommendations lacked support and should not serve
  of management, research, and services related to the                   as the sole justification for specific action by NOAA.
  protection and rational use of living marine resources.
                                                                         The Booz Allen consultants who prepared the reports in the study
  National Environmental Satellite, Data, and                           advised us that in their opinion the reports contained all the evi-
  Information Service observes the environment by                       dence necessary to understand the basis for their recommendations,
  operating a national satellite system.                               but we did not find that to be the case.
  NOAA Research (Office of Oceanic and Atmospheric
                                                                      We were unable, for example, to see how information reportedly gath­
  Research) conducts research related to the oceans
                                                                     ered in Booz Allen’s interviews with NOAA and departmental offi­
  and inland waters, the lower and upper atmosphere,
                                                                   cials supported the reports’ findings and conclusions. Likewise, we could
  the space environment, and the Earth.
                                                                 not assess the validity of estimated costs and savings Booz Allen identi-
  NOAA Marine and Aviation Operations                          fied because these reports lacked sufficient analysis supporting the formu­
  operates NOAA’s ships and aircraft and                   lation  of those amounts. We could not reconcile the key cost and staffing fig-
  provides NOAA programs with trained                   ures  contained   in the reports with other verifiable data, such as NOAA’s audited
  technical and management                           accounting     records. In addition, we were unable to analyze Booz Allen’s adjust-
  personnel from the nation’s                     ments to  the  activity based  costing data produced by NOAA or to validate the produc­
  seventh uniformed                          tivity gains Booz    Allen  assumed   NOAA could achieve. Similarly, we could not assess the
  service.                               validity of Booz  Allen’s   decision  to recommend   a specific organizational structure because the
                                     reports did not contain sufficient analysis supporting that decision or indicating why the structure
                              chosen suited NOAA better than any other option identified.

Our concerns persisted even after meeting with the Booz Allen consultants who prepared the reports and discussing the issues that
troubled us. As a result, we concluded that neither the findings nor recommendations contained in the Booz Allen reports should serve as
the sole justification for action by NOAA.




March 2005/Semiannual Report to Congress                                                                                               25
National Oceanic and Atmospheric Administration




Agency Response                                                         NESDIS entered into agreements without
                                                                        justifying its selection of NASA as the
NOAA suggested that the Booz Allen study played a limited role          procurement source
in its decisions and subsequent actions to change the manner in
which it delivers finance and administrative services, noting that it   The agreements originally cited the Department’s joint project
considered findings and recommendations from previous studies           authority. However, the Department’s Office of General Counsel
in making that decision. This response was consistent with our          approved the agreements under the authority of the Economy Act
conclusion that the Booz Allen reports should not serve as the sole     of 1932, as amended. This act ensures that agencies do not cir­
basis for agency action. (Denver Regional Office of Audits: DEN­        cumvent the procedures, time, and cost of open competition, and
16498)                                                                  thus NESDIS should therefore have conducted market research to
                                                                        show that NASA was the best choice for the work. NESDIS did
                                                                        not conduct any formal analysis showing that NASA’s acquisition
                                                                        services for the satellites were more convenient or economical than
                                                                        those of any other contractor. We also found that the agreements
NESDIS Needs to Follow                                                  for Polar Operational Environmental Satellites (POES) and Geo­
Latest Guidance for Acquiring                                           stationary Operational Environmental Satellites (GOES) did not
Satellites Via Memorandums                                              include budget or management information.
of Agreement                                                            We recommended that the Deputy Under Secretary for Oceans
                                                                        and Atmosphere ensure proper legal authority is cited in the POES
As a follow-up to our September 2000 series of reviews on the           and GOES memorandums of understanding, as well as in future
Department’s implementation and oversight of interagency agree­         agreements; comply with the Economy Act; and update the POES
ments, we audited two memorandums of agreement (MOAs) used              and GOES agreements to follow the Department’s Interim Inter­
by NOAA’s National Environmental Satellite, Data, and Informa­          agency and Other Special Agreements Handbook (May 2004) and
tion Service (NESDIS) to acquire environmental satellites through       NESDIS’ Review and Clearance Procedures for Agreements.
the National Aeronautics and Space Administration (NASA).

Our findings are as follows:                                            Agency Response

New processes and procedures exist for                                  NOAA’s chief administrative officer agreed with our recommen­
appropriately preparing, reviewing, and                                 dations. He noted that NOAA will ensure that current agreements
clearing interagency agreements                                         are amended to comply with past and present regulations and that
                                                                        future agreements comply with applicable laws, regulations, and
                                   The Department recently issued       policies. (Office of Audits: BSD-16927)
                                   the Interim Interagency and
                                   Other Special Agreements Hand­
                                   book to provide guidance for the
                                   use, management, and oversight       Pacific Coastal Salmon
                                   of interagency agreements.
                                   NESDIS issued its own manual
                                                                        Recovery Fund
                                   for interagency agreements, Re­
                                                                        As detailed in our September 2004 Semiannual Report (pages 8
                                   view and Clearance Procedures
                                                                        and 31-32), OIG is auditing a series of projects operating under
                                   for Agreements, on October 31,
                                                                        the Pacific Coastal Salmon Recovery Fund—the multimillion dollar
                                   2002. The NESDIS manual,
                                                                        federal grant program administered by NOAA to enhance salmon
                                   coupled with the requirements of
                                                                        recovery in Alaska, California, Idaho, Oregon, and Washington.
                                   the departmental handbook and
                                                                        Since the program’s inception in FY 2000, these states and select
                                   the specific authorizing legisla­
                                                                        Indian tribes have received some $436 million to support local
                                   tion, provides sufficient guidance
                                                                        salmon conservation efforts. One Washington grantee—a Native
                                   for preparing, reviewing, and
                                                                        American commission—is using a 5-year, $27.3 million recovery
                                   clearing interagency agreements.
                                                                        fund award to finance salmon projects operated by its 20 member
                                                                        tribes.

Source: www.nesdis.noaa.gov.




26                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                    National Oceanic and Atmospheric Administration




                                                                              rect costs because the tribe failed to adhere to federal cost prin­
                                                                              ciples and uniform administrative requirements. This tribe also
                                                                              did not submit the required semiannual progress reports. (Seattle
                                                                              Regional Office of Audits: STL-16657-2 and -4)

                                                                              Northwest Washington Salmon
                                                                              Recovery Project on Track to Meet
                                                                              Performance Goals

                                                                              Our interim audit of a third subgrant found that the tribe is making
                                                                              sufficient progress toward promoting multispecies salmon recov­
                                                                              ery throughout its targeted 120-mile fishing area that extends south
                                                                              from the Canadian border. We concluded that the tribe is on track
                                                                              to meet the objectives of the NOAA grant by the award’s expira­
                                                                              tion date.
Tribal employees place sandbags in a tributary to force smolts into a chan­
nel that moves them into a box-and-screen trap for counting. Smolts are
juvenile salmon that migrate from fresh water to estuaries where fresh and
salt water mix so they can adjust before moving out to sea as adults.
Source: OIG.



We reported on our interim audits of projects conducted by two
tribes in the last semiannual. During this reporting period, we au­
dited the projects of three additional tribes. Our findings are de­
tailed below.

Recovery of Nearly $1 Million in
Administrative Costs From Two
Washington Tribes Recommended

One tribe submitted costs to the commission of $540,902 during
our audit period (April 2000 through September 2003). We ques­                A smolt trap is used to quantify how many fish are moving through a
tioned this entire amount because the costs invoiced to the com­              water system. There are several types, including screw traps, which are
mission were for expenses incurred on projects that had other                 used to catch fish moving downstream in big rivers and streams. Water
sources of funding and had already been billed against those                  turns the barrel of rotary screw traps (above), funneling smolts into a box
awards. In making its claim to the commission, the tribe simply               to be counted and then released.
transferred costs from the other projects to the commission                   Source: OIG.
subgrant. In addition, the tribe could not show that claimed costs
for labor, fringe benefits, and other direct expenses were incurred
solely in support of subgrant activities, and failed to submit re­            We accepted the entire $902,213 in costs invoiced to the commis­
quired progress reports.                                                      sion during our audit period (April 2000 through September 2003),
                                                                              and found that the tribe had administered the project in accordance
The second tribe submitted costs of $696,269 during our audit                 with award terms and conditions, and federal cost principles and
period (April 2000 through September 2003). We questioned                     administrative requirements. (Seattle Regional Office of Audits:
$441,250 claimed for labor and related fringe benefits and indi-              STL-16657-6)




March 2005/Semiannual Report to Congress                                                                                                           27
                    NATIONAL
                    TELECOMMUNICATIONS AND
                    INFORMATION ADMINISTRATION
                          Sound Grant Administration Noted in New
                            Hampshire Television Project
 T       he
         National
 Telecommunications and
                                       In September 2002, NTIA awarded a $1.2 million Public Telecommunications Facilities Program
                                          grant to a university-operated public television station in New Hampshire to convert three of its
                                            eight component stations from analog to digital transmission. The 1-year grant required match-
 Information Administration
 serves through the Secretary of              ing funds of $2.1 million, for total project costs of $3.3 million. The stations serve a com-
 Commerce as the executive                     bined population of 1.2 million. At the expiration of the grant period, the recipient had
 branch’s principal advisor to the               incurred total project costs of $3,425,666.
 President on domestic and
 international telecommunications and              We audited the award to determine whether the recipient had complied with federal
 information policy issues. NTIA                    laws and regulations and NTIA grant terms and conditions. We found only one minor
 manages the federal use of the                      instance of noncompliance—a piece of equipment purchased with grant funds was not
 electromagnetic spectrum, provides                  labeled, as required, with the NTIA grant number. The recipient has corrected this
 grants for national information and public          minor instance of noncompliance by labeling the piece of equipment. (Atlanta Re­
 broadcasting infrastructure projects, and           gional Office of Audits: ATL-16981)
 performs telecommunications research
 and engineering. It works to enhance
 citizens’ access to cable television,
 phone, and other telecommunications
 services; and educates state and local
 governments and other entities on
 ways to use information
 technology and
 telecommunications
 more effectively.




March 2005/Semiannual Report to Congress                                                                                             29
                        TECHNOLOGY
                        ADMINISTRATION

                                    Millions of Dollars Questioned in Joint

                                        Venture Project

   T
           he
           Technology
           Administration serves                    A publicly traded producer of software for health care providers received a $9.2 mil-
   the needs of technology-based                       lion ATP award to administer a joint venture formed to develop technologies for
   industry, advocates federal actions                    sharing medical data across clinical information systems. The 3-year project,
   and policies to speed the transfer of                     which commenced in December 2001, required a recipient match of $9.6 mil-
   technology from the laboratory to the                       lion. In February 2004, NIST suspended payment under the cooperative agree-
   marketplace, and removes barriers for                          ment because of suspected noncompliance with award terms and condi­
   commercializing new technologies. It includes                    tions, and requested OIG assistance. The suspension is now lifted.
   three major organizations:
                                                                       We audited costs claimed by the administrator for the period from
   Office of Technology Policy works in partnership                     December 2001 through June 2004—which totaled $7,401,589—and
   with the private sector to develop and advocate national              questioned millions of this amount, as follows:
   policies and initiatives that use technology to build
   America’s economic strength, promote the creation of                    Improper basis for software valuation. Among other things, we
   high-wage jobs, and bring about improvements in our                      found that in 2002, the administrator claimed to have contributed
   quality of life.                                                         software and allocated indirect costs on the claimed value of the
                                                                             software. It therefore received federal reimbursement, though the
   National Institute of Standards and Technology                            actual software transfer did not occur until 2004. Federal regula-
   promotes U.S. economic growth by working to develop                       tions  require that product valuations be based on prices at which
   and apply technology, measurements, and standards. NIST                   comparable      goods sold in the 12 months prior to the transfer.
   manages four programs: NIST Research Laboratories,                       Because     the administrator’s  valuation was based on comparable
   the Advanced Technology Program, the Manufacturing                      sales  from   3 years earlier, we questioned the amount of the claimed
   Extension Partnership program, and the Baldrige                        contribution.

   National Quality Program.

                                                                        Imputed interest on advance payment. We also found that the
   National Technical Information Service is a                         reimbursement       for a transfer that had not yet occurred was, in effect,
   self-supporting agency that promotes the nation’s                  an  advance     payment.    Federal regulations require grant recipients to
   economic growth and job creation by providing                     deposit   advanced    federal funds in interest-bearing accounts and to remit
   access to information that stimulates                           earned  interest   to the agency  annually. The administrator did not maintain
   innovation and discovery. NTIS accom-                         the  funds   in an  interest-bearing   account, so we imputed interest owed to
   plishes this mission through information                   NIST.
   collection and dissemination to the
   public and through information and                   Questionable accounting practices. The administrator inappropriately applied
   production services to federal                    the  award’s indirect cost rate to the software valuation. Federal regulations define
   agencies.                                     indirect  costs as those incurred in the normal conduct of business, such as overhead ex­
                                             penses related to supporting direct labor and production. The software valuation was unre­
                                         lated to direct production or other reasonable overhead expense.

                           Inappropriate personnel and related indirect costs. Contrary to its own policies and federal cost prin­
           ciples, the administrator charged NIST for overtime and vacation pay for employees working on other projects, gave staff
bonuses without NIST approval, and billed estimated rather than actual labor hours, all of which caused us to question $159,925 in
personnel and related costs.




March 2005/Semiannual Report to Congress                                                                                                     31
Technology Administration




The company disagreed with our findings but provided no docu­          Our interim audit of this 9-month period questioned $294,495 of
mentation to change our conclusions. We recommended that NIST          the costs claimed: the recipient had received $193,907 of this
disallow millions in questioned costs and recover the federal share,   amount for costs billed by a subcontractor with which it had no
which includes imputed interest. (Atlanta Regional Office of Au­       written contract, and the remaining $100,588 for unallowable
dits: ATL-16872)                                                       equipment purchases. In addition, the grantee had
                                                                           •	 billed NIST for costs not yet invoiced, thus accumulating
                                                                              grant funds before they were needed;
    NIST’s Advanced Technology Program                                     • f	 ailed to develop written standards for employee conduct;
                                                                              and
    As part of its efforts to spur technological development, NIST         •	 used grant funds to give an employee a large pay raise,
    administers the Advanced Technology Program (ATP) to pro­
                                                                              which may have reduced the amount available to cover
    vide financial assistance through cooperative agreements,
    with the goal of transferring cutting-edge technology to in­
                                                                              agreed-upon costs or labor requirements.
    dustrial uses. Between 1990 and September 2004, ATP
    awarded $2.3 billion in funding to companies to develop            We recommended that NIST disallow the total amount questioned,
    promising, high-risk technologies. Industry has matched this       recover excess federal funds of $221,971, and direct the recipient
    funding with $2.3 billion in cost-sharing.                         to establish the required written standards for employee conduct.
                                                                       We also advised NIST to take appropriate action should the salary
                                                                       increase adversely affect the grantee’s ability to achieve the award’s
                                                                       stated goals. (Denver Regional Office of Audits: DEN-16926)




                                                                       Audit Confirms Cost-Share
                                                                       Requirements Met by
                                                                       ATP Recipient
                                                                       A Maryland engineering firm received an ATP award in Septem­
                                                                       ber 2003 to mass produce a foil adhesive for bonding dissimilar
                                                                       materials, such as metal and ceramic, without the use of heat—a
                                                                       process with potentially wide application and benefit to the de­
Source: www.atp.nist.gov/eao/statistics/.                              fense and aerospace industries. Total estimated costs of the 2-year
                                                                       project are $2.3 million, with the federal share for the first year
                                                                       not to exceed $1,186,884, or 84 percent of allowable direct costs.
                                                                       The firm claimed first-year project costs totaling $806,140 and
Questioned Costs of $294,495                                           received $615,000 in federal reimbursement.
in Audit of Michigan ATP
Grantee                                                                We conducted an interim financial audit of costs claimed and re­
                                                                       imbursed for the project’s initial 11 months (October 2003 through
In September 2003, NIST awarded a 3-year ATP cooperative agree­        August 2004), and found that the recipient had covered less than
ment to a Michigan engineering firm to develop enhanced manu­          half of its share of direct costs for that period (7.24 percent versus
facturing assembly processes primarily for the automotive indus­       the required 15.95 percent). In response to our draft report, the
try. Total estimated costs of the award are $2,117,299, with the       firm provided documentation demonstrating that it had balanced
federal share not to exceed $1,987,927, or 94 percent of allowable     the excess federal payments it had received during these 11 months
costs. During the project’s first 9 months (October 2003 through       by absorbing all project costs incurred during the month of Sep­
June 2004), the firm reported costs of $490,065 and received re­       tember 2004 ($143,159). NIST confirmed that it had not reim­
imbursement of $389,478.                                               bursed any of these costs. As a result, the recipient had actually
                                                                       exceeded its first-year cost-share requirement, having covered
                                                                       23.71 percent of direct costs. We therefore considered the matter
                                                                       resolved. (Denver Regional Office of Audits: DEN-16983)




32                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                                          Technology Administration




Minor Noncompliance                                                     Assessment of IT Controls
Found in Audit of California                                            The review of IT controls against the six criteria outlined in GAO’s
Joint Venture                                                           Federal Information System Controls Audit Manual13 noted two
                                                                        open findings remaining from FY 2003. The independent auditors
We audited the costs claimed by a member of a two-company joint         identified one new finding and made four recommendations in the
venture that received an ATP cooperative agreement to develop           areas of security planning and management, access control, and
high-speed optical switches for the telecommunications industry.        service continuity. (Financial Statements and Accountability Di­
For the joint venture, total estimated costs of the 4-year project      vision: FSD-16698 and 16699)
(October 2003 through September 2007) are $7.0 million, with
the federal share capped at roughly $3.5 million, or 50 percent.
The member’s share of the total estimated costs is $4 million, with
federal reimbursement limited to $999,505, or about 25 percent.         Audits Unresolved for
For the award’s first year, the federal cost-share to the member
firm was capped at $231,602, or 22.47 percent.                          More than 6 Months

During the project’s first 6 months, the member firm billed the         Massachusetts MEP
joint venture administrator for costs of $352,080 and received
$30,961 in federal disbursements. We questioned $3,132 of these         Our September 2004 Semiannual Report (page 37) detailed an audit
claimed costs, consisting of $1,592 in non-ATP payroll expenses         of an MEP cooperative agreement as being unresolved for more
and fringe benefits, and $1,540 in related indirect costs. During       than 6 months. Our audit had recommended that NIST disallow
the same time frame, the firm had not claimed eligible project          questioned costs of $8,177,606, recover the federal share of
expenditures of $2,383. We therefore credited the firm for this         $1,599,349, and require the recipient to implement improvements
amount, which reduced questioned costs to $749.                         to its financial reporting system. In its audit resolution proposal,
                                                                        NIST disallowed $715,097 and reinstated $7,462,509 in costs ques­
Our audit also revealed that the member’s accounting system did         tioned in the audit report. In July 2004, after detailed analyses of
not comply with federal cost principles in that it did not have writ­   NIST’s audit resolution proposal and other documents provided
ten procedures for determining the reasonableness and allowability      by NIST and the recipient, we advised NIST that we concurred
of costs.                                                               with its decision to disallow $715,097, but did not concur with
                                                                        reinstatement of the remaining $7,462,509. We continue to work
We recommended that NIST disallow the questioned amount of              with NIST to resolve this report.
$749, recover $168 in excess federal disbursements, and direct the
joint venture member to develop the required written financial          Computer Aided Surgery, Inc.,
management procedures. (Denver Regional Office of Audits: DEN­
16869)
                                                                        New York

                                                                        An OIG audit of this NIST cooperative agreement (see September
                                                                        2004 issue, page 35, ATL-16095) questioned costs totaling
                                                                        $547,426 in inappropriately charged rent, utilities, and certain sal­
Audit of NTIS’ FY 2004                                                  ary, fringe benefit, and other expenses, because these costs were
Financial Statements                                                    unallowable, in excess of budgetary limits, or incorrectly catego­
                                                                        rized. We have postponed NIST’s submission of an audit resolu­
NTIS received an unqualified opinion on its FY 2004 financial           tion proposal.
statements, and the independent auditors noted the agency has es­
tablished an internal control structure that supports reporting of
reliable financial and performance information. NTIS’ financial
statements showed no material weaknesses in internal control and        13
                                                                          The six criteria are entitywide security program planning and management, ac­
fully complied with related financial management laws and regu­         cess controls, application software development and change control, system soft­
lations.                                                                ware, segregation of duties, and service continuity.




March 2005/Semiannual Report to Congress                                                                                                         33
34   U.S. Department of Commerce/Office of Inspector General
                    UNITED STATES PATENT AND
                    TRADEMARK OFFICE

                          Audit of USPTO’S FY 2004 Financial Statements
                                   Fiscal Year 2004 marked the 12th consecutive year that the U.S. Patent and Trademark Office’s annual

   T
           The
           United                    audit received an unqualified opinion. The independent auditors found the agency’s financial state-
           States Patent               ments had no material weaknesses and complied with all applicable laws and regulations.
   and Trademark Office
   administers the nation’s                Assessment of IT Controls
   patent and trademark laws.
   Patents are granted and                   The review of IT controls against the six criteria outlined in FISCAM found that USPTO
   trademarks registered under a              had fully resolved five of the seven weaknesses related to security controls that were iden­
   system intended to provide                  tified in the FY 2003 audit. Auditors identified four new findings (for a new total of six) in
   incentives to invent, invest in              the areas of security program planning and management, access controls, and service
   research, commercialize new                  continuity. (Financial Statements and Accountability Audits: FSD-16700 and 16701)
   technology, and draw attention to
   inventions that would otherwise
   go unnoticed. USPTO also
   collects, assembles, publishes,            Investigations
   and disseminates technological
   information disclosed in
   patents.                                 Former USPTO Employee Pleads Guilty to
                                           Possession of Child Pornography

                                    A former patent examiner was convicted of possession of child pornography after an OIG investi­

                                 gation established that he had used both his government and personal computers to access and down­

                              load sexually explicit material depicting children, which he transported between his USPTO office and 

                          residence. On January 31, 2005, the defendant waived indictment and pleaded guilty in U.S. District Court 

                      for the Eastern District of Virginia to a one-count criminal information charging him with violating 18 USC § 

               2252A (a)(5). As part of a plea arrangement, the former employee also agreed to forfeit to the government two personal 

computers seized during the course of the investigation. Sentencing is scheduled for April 2005. (Washington Field Office)




March 2005/Semiannual Report to Congress                                                                                               35
36   U.S. Department of Commerce/Office of Inspector General
                      DEPARTMENT-WIDE
                      MANAGEMENT

                             Audit of Department’s FY 2004 Consolidated
                               Financial Statements

    T
            he
            United
                                           FY 2004 marked the sixth consecutive year that Commerce received an unqualified opinion
            States
                                             on its consolidated financial statements. The independent auditors found that the Depart-
    Department of Commerce
                                               ment has established an internal control structure that facilitates preparation of reli­
    promotes job creation and
                                                  able financial and performance information, but noted one reportable condition re-
    improved living standards for all
                                                     lated to its financial management systems. There also was one instance of non-
    Americans by creating infrastructure
                                                       compliance with OMB Circular A-11, Preparation, Submission, and Execution
    that fosters economic growth,
                                                        of the Budget.

    technological competitiveness, and
    sustainable growth. The Department has

                                                           IT controls. Although the auditors again found IT controls in all six FISCAM
    three strategic goals:
                                                            areas had improved, they noted continuing weaknesses throughout the De-
                                                             partment in entitywide security, and deficiencies at select bureaus in the
    Goal 1: Provide the information and the
                                                              areas of access controls, application software development and change
    framework to enable the economy to operate
                                                               control, system software, segregation of duties, and service continuity.
    efficiently and equitably.
                                                                Automated budgetary controls and integrated financial management. 

    Goal 2: Provide the infrastructure innovation to
                                                                NIST implemented the Commerce Business Systems (CBS) funds con­

    enhance American competitiveness.
                                                                trol module at the beginning of FY 2004 as recommended by the audit 

                                                                of FY 2003. The Department also completed implementation of CBS in 

    Goal 3: Observe and manage the Earth’s
                                                                NTIA and Technology Administration.
    environment to promote sustainable growth.

    The Department has also established a                      Compliance with Laws and Regulations
    Management Integration Goal that is equally
    important to all bureaus: Strengthen                    Compliance testing of the Department’s financial management procedures
    management at all levels.                              and systems showed improvement in one area and remaining deficiencies in
                                                          two others:

                                                       Federal Financial Management Improvement Act of 1996. The auditors deter­
                                                    mined that the Department’s financial management systems substantially complied
                                                  with the requirements of the act.

                                             OMB Circular A-11, Preparation, Submission, and Execution of Budget. The Depart­
                                        ment was noncompliant with the circular in one instance: although NOAA fully funded the 11
                                    capital leases identified as underfunded in the 2003 audit, it identified another 65 leases that require
                               full funding. NOAA indicated that it has since reduced this number to 53 and plans to fully fund the
                          remaining leases in FY 2005.

Additional Concern. NOAA identified two reimbursable agreements with nonprofit entities that contained indemnification clauses,
which raised concerns about compliance with the Anti-Deficiency Act. NOAA amended the agreements in June and July 2004 to resolve
the concerns. At the request of the Office of General Counsel, NOAA initiated an investigation into whether execution of the two
agreements violated the act, and reported on October 8, 2004, that such violation did occur. The violations were reported to the President
and Congress, as required by 31 USC § 1351. (Financial Statements and Accountability Audits: FSD-16696 and16697)




March 2005/Semiannual Report to Congress                                                                                              37
Department-wide Management




                                                                                       PREAWARD SCREENING RESULTS


                                                                                                                                   Award
                                                                                   Results                                 Number         Amount
                                                                                   Awards delayed to resolve concerns          5         $3,235,148

                                                                                   Special award conditions established        1         $2,000,000





                                                                                 Nonfederal Audit Activities
Source: FY 1996-FY 2004 U.S. Department of Commerce financial statements audit   In addition to undergoing OIG-performed audits, certain recipi­
reports.                                                                         ents of Commerce financial assistance are periodically examined
                                                                                 by state and local government auditors or independent public ac­
                                                                                 countants. OMB Circular A-133, Audits of States, Local Govern­
                                                                                 ments, and Non-Profit Organizations, sets forth the audit require­
Preaward Financial Assistance                                                    ments for most of these audits. For-profit organizations that re­
Screening                                                                        ceive Advanced Technology Program funds from NIST are au­
                                                                                 dited in accordance with Government Auditing Standards and NIST
As part of our ongoing emphasis on preventing fraud, waste, and                  Program-Specific Audit Guidelines for ATP Cooperative Agree­
abuse, we continue to work with the Office of Acquisition Man­                   ments, issued by the Department.
agement, NOAA and NIST grant offices, and EDA program of­
fices to screen the Department’s proposed grants and cooperative                 We examined 161 audit reports during this semiannual period to
agreements before they are awarded. Our screening serves two                     determine whether they contained any audit findings related to
functions: it provides information on whether the applicant has                  Commerce programs. For 105 of these reports, the Department
unresolved audit findings and recommendations on earlier awards,                 acts as oversight agency and monitors the audited entity’s compli­
and it identifies any negative financial or investigative history on             ance with OMB Circular A-133 or NIST’s program-specific re­
individuals or organizations connected with a proposed award.                    porting requirements. The other 56 reports are from entities for
                                                                                 which other federal agencies have primary oversight responsibil­
On January 1, 2004, we implemented new policies and procedures                   ity. We identified 20 reports with findings related to the Depart­
for our preaward screening process. OIG and the Department de­                   ment of Commerce.
termined that there are several categories of recipients for whom
the costs and administrative burden of the screening process may                                                                 ATP
well outweigh the government’s risk of financial loss. Our new                                                      OMB        Program-
policies exempt from review recipients who (1) receive awards in                                                    A-133       Specific
amounts of $100,000 or less, (2) have received financial assis­                    Report Category                  Audits      Audits         Total
tance from the Department for 3 or more consecutive years with­
out any adverse program or audit findings, or (3) are units of a                   Pending (October 1, 2004)          17            72          89
state or local government.
                                                                                   Received                           87            93         180
During this period we screened 100 proposed awards. For 6 of the
awards, we found significant deficiencies—such as poor financial                   Examined                           94            67         161
condition, unresolved audit findings, or criminal history—that
could affect the ability of the prospective recipients to maintain                 Pending (March 31, 2005)           10            98         108
proper control over federal funds. On the basis of the information
we provided, the Department delayed 5 awards to resolve con­
cerns and established special conditions for 1 award. (Office of                 The following table shows a breakdown, by bureau, of the nearly
Audits)                                                                          $249 million in Commerce funds audited.




38                                                                                           U.S. Department of Commerce/Office of Inspector General
                                                                                                    Department-wide Management




  Bureau                                             Funds    In most reports the subject programs were not considered major
                                                              programs; thus the audits involved limited transaction and com­
  EDA                                          $ 27,947,588
                                                              pliance testing against laws, regulations, and grant terms and con­
  NIST*                                        125,932,093    ditions. The 20 reports with Commerce findings are listed in Ap­
  NOAA                                           15,102,095   pendix B-1. (Atlanta and Denver Regional Offices of Audits)
  NTIA                                            1,165,587
  MBDA                                              338,750
  Multiagency                                    76,441,190
  Agency not identified                           1,978,342
  Total                                       $248,905,645

* Includes $111,870,713 in ATP program-specific audits.




March 2005/Semiannual Report to Congress                                                                                   39
                                 OFFICE OF
                                 INSPECTOR GENERAL

                                OIG Investigations Receives Top Mark
                                  in Quality Assessment Review

   T
           he
           mission of                       All OIGs granted statutory law enforcement authority under the Homeland Security Act are
           the Office of                      required by the Attorney General’s Guidelines for such organizations to participate in a
   Inspector General is to                      regular program of quality assessment review. Pursuant to this program, the investiga­
   promote economy, efficiency,                   tive operations of each OIG are subject to a peer review by a fellow OIG every 3 years.
   and effectiveness and detect and                 The results of these reviews are communicated to the Attorney General and the re-
   prevent waste, fraud, abuse, and                  viewed OIG, and are intended to ensure compliance with applicable guidelines
   mismanagement in the programs and                  established by the President’s Council on Integrity and Efficiency (PCIE) and the
   operations of the U.S. Department of                Attorney General, as well as to improve/facilitate substantive communications
   Commerce. Through its audits,                        within the OIG investigative community regarding efficient procedures and best
   inspections, performance evaluations, and            practices.
   investigations, OIG proposes innovative
   ideas and constructive solutions that lead            During this semiannual period, the General Services Administration’s OIG com­
   to positive changes for the Department.               pleted the quality assessment review of our Office of Investigations, and found
   By providing timely, useful, and reliable             our internal safeguards and management procedures in full compliance with the
   information and advice to departmental                quality standards established by the PCIE and the Attorney General’s Guide-
   officials, the administration, and                   lines.

   Congress, OIG’s work helps improve

   Commerce management and operations

   as well as its delivery of services to

   the public.
                                                     Update of Quality Standards
                                                    for Inspections Issued
                                              In January 2005, the Commerce OIG disseminated a re­
                                           vised edition of the Quality Standards for Inspections (the
                                         “Blue Book”)—a publication of the PCIE and the Executive
                                        Council on Integrity and Efficiency (ECIE) originally issued in
                                       1993.

                     The 14 standards establish strict criteria against which offices of inspector general
should plan and conduct inspections and evaluations. Such standards have been broadly embraced by
OIGs at all levels of government to help maintain their strong reputations for impartiality and credibility.
Though compliance with the standards is voluntary, Commerce IG Johnnie Frazier urged inspectors
general to follow them. “These standards ensure that the findings of inspections and evaluations are as
valuable, reliable, and irrefutable as those of our audits and investigations,” Frazier stated. “At the same
time, they allow the flexibility to approach the issues from our own perspectives and according to our
own needs and interests.” Frazier chairs the PCIE Inspection & Evaluation Committee, which updated
the standards.

Two of the 14 standards are new—“Performance Measurement” and “Working Relationships and Communication.” These reflect the
government-wide focus on results—offices of inspector general should be able to document the impact of their work, like any other
federal entity; and positive interactions with those they inspect make it more likely that recommended improvements will be accepted.




March 2005/Semiannual Report to Congress                                                                                           41
Office of Inspector General




In revising the standards, the federal councils considered input       ployees whose exemplary achievements have directly enhanced
from their membership and drew from the following sources:             the operations of the Department or the well-being of the nation.
    • T
      	 he PCIE Quality Standards for Federal Offices of
      Inspector General (the “Silver Book”).                           Inspector General Frazier stated that Blansitt was nominated for
                                                                       the award for his leadership and management performance, for
    • T
      	 he Association of Inspectors General Principles and            leading the senior staff in developing plans and budgets that re­
      Standards for Offices of Inspector General.                      flect the office’s most important priorities, and for improving the
    • T
      	 he Government Accountability Office’s Government               quality and impact of hundreds of performance audits, inspections,
      Auditing Standards (the “Yellow Book”).                          and program evaluations reports. Blansitt has been deputy inspec­
                                                                       tor general at Commerce since March 2000.
The PCIE is an interagency group of inspectors general from cabi­
net-level departments and major federal agencies, who are ap­          OIG SILVER MEDAL WINNERS
pointed by the President of the United States.
                                                                       OIG staff members Martin Trocki, Frederick Meny, Patricia
The interagency ECIE is comprised of inspectors general from           Derr, and David C. Rose each received the Silver Medal—the
smaller federal agencies, who are appointed by their agency head.      second highest honor bestowed by the Secretary of Commerce to
                                                                       the select few whose work has significantly enhanced departmen­
                                                                       tal operations. Trocki, Meny, and Derr were honored for their work
Special Awards                                                         on the Census Bureau’s information technology modernization
                                                                       plans for the 2010 decennial census. Rose received the Silver Medal
Assistant Inspector General Receives                                   for his audits of the Department’s performance reporting, which
Presidential Rank Award                                                have significantly enhanced the quality of Commerce data reported
                                                                       to Congress.
Each year, the President honors a small group of career senior
executives whose accomplishments are exceptional and long run­
ning, by conferring the Presidential Rank Award. This year, Jill
Gross, OIG’s assistant inspector general for inspections and           Other Activities of Note
program evaluations, was chosen to receive this prestigious honor.
As head of the inspections and evaluations office, Gross is respon­    OIG Sponsors Federal Contracting
sible for planning and managing a critical OIG work program that       Conference
has significantly improved Commerce operations, saved millions
of dollars for the Department and U.S. taxpayers, and ultimately       OIG’s Denver Regional Office held a successful 3-day conference
made government work better. She has also been a key force in          on federal contracting February 7-9, 2005. “An Overview of Fed­
enhancing work processes and products throughout the entire IG         eral Contracting,” presented by former Air Force contracting of­
community via her involvement in the President’s Council on In­        ficer Gerald Francis, attracted 20 participating auditors interested
tegrity and Efficiency. Only about 5 percent of career executives      in better oversight of federal contracts from the OIGs of the de­
receive the Presidential Rank award each year.                         partments of Energy, Housing and Urban Development, Commerce,
                                                                       and the National Science Foundation. Topics covered ranged from
According to Commerce IG Johnnie Frazier, the work produced un­        acquisition planning and procurement requests to terminations,
der Gross’s leadership has been instrumental in improving the qual­    claims and disputes, and time and materials contracts.
ity of Commerce programs. “Ms. Gross’s accomplishments since tak­
ing the helm of our Office of Inspections and Program Evaluations in   IGs Frazier, Tinsley Presenters at Alaska
1998 speak for themselves. She has consistently demonstrated an ex­    Audit Forum
traordinary commitment to the OIG mission, and under her direction,
the impressive work of this office has prompted major improvements     In October 2004, Commerce Inspector General Johnnie E. Frazier
in the operation of Commerce facilities both at home and abroad.”      gave a joint presentation with IG Nikki Tinsley (Environmental
                                                                       Protection Agency) on the importance of federal, state, and local
Deputy IG Receives Department’s                                        collaboration in improving government programs and operations
Top Honor                                                              at the 2-day Pacific Northwest Intergovernmental Audit Forum in
                                                                       Anchorage, Alaska. The forum brought together federal, state, and
Deputy Inspector General Edward L. Blansitt was recently               municipal auditors as well as representatives from the Govern­
awarded a Gold Medal, the highest honor bestowed by the Secre­         ment Accountability Office.
tary of Commerce. The Gold Medal award is given only to em­




42                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                                                                               Office of Inspector General




TABLES AND STATISTICS


Statistical Overview

 TABLES                                                                                                                                                                               PAGE


  1. Investigative Statistical Highlights for this Period .................................................................................................................... 43


  2. Audit Resolution Follow-Up ..................................................................................................................................................... 44


  3. Audit and Inspection Statistical Highlights for this Period ...................................................................................................... 44


  4. Audits with Questioned Costs ................................................................................................................................................... 45


  5. Audits with Recommendations that Funds Be Put to Better Use ............................................................................................. 45


  APPENDIXES


  A. Report Types this Period ........................................................................................................................................................... 46


      A-1. Performance Audits .......................................................................................................................................................... 46


      A-2. Financial Assistance Audits .............................................................................................................................................. 47


      A-3. Financial Statements Audits ............................................................................................................................................. 48


      A-4. Inspections and Systems Evaluations ............................................................................................................................... 48


  B. Processed Reports ..................................................................................................................................................................... 49


      B-1. Processed Reports with Audit Findings ............................................................................................................................ 50



Table 1. Investigative Statistical Highlights                                                      Audit Resolution and Follow-up
for this Period
                                                                                                   The Inspector General Act Amendments of 1988 require us to
 Criminal Investigative Activities                                                                 present in this report those audits issued before the beginning of
                                                                                                   the reporting period (October 1, 2004) for which no management
 Arrests                                                                                7          decision had been made by the end of the period (March 31, 2005).
 Indictments and informations                                                           3          Two audit reports remain unresolved for this reporting period (see
 Convictions                                                                            1          page 33).
 Personnel actions                                                                      6
 Fines, restitutions, judgments, and other                                                         Department Administrative Order 213-5, Audit Resolution and
     civil and administrative recoveries                                      $69,971              Follow-up, provides procedures for management to request a modi­
                                                                                                   fication to an approved audit action plan or for a financial assis­
 Allegations Processed                                                                             tance recipient to appeal an audit resolution determination. The
                                                                                                   following table summarizes modification and appeal activity dur­
 Accepted for investigation                                35
                                                                                                   ing the reporting period.
 Referred to operating units                               56
 Evaluated but not accepted for investigation or referral 15
 Total                                                    106




March 2005/Semiannual Report to Congress                                                                                                                                                    43
Office of Inspector General




Table 2. Audit Resolution Follow-Up                                                      Table 3. Audit and Inspection Statistical
                                                                                         Highlights for this Period
    Report Category                            Modifications          Appeals
                                                                                            Questioned costs                                             $14,915,037*
    Actions pending (October 1, 2004)                  0                   8
                                                                                            Value of audit recommendations
    Submissions                                        0                   7                that funds be put to better use                                    421,340

    Decisions                                          0                   6                Value of audit recommendations
                                                                                            agreed to by management                                           6,021,206
    Actions pending (March 31, 2005)                   0                   9
                                                                                         *This number includes costs questioned by state and local government auditors
                                                                                         or independent public accountants.


Table 4. Audits with Questioned Costs

    Report Category                                                                           Number	                Questioned Costs             Unsupported Costs


    A. Reports for which no management decision had been made
       by the beginning of the reporting period                                                         28                 $8,844,315                   $1,805,765

    B. Reports issued during the reporting period                                                       23                 14,915,037                    6,451,608

       Total reports (A+B) requiring a management decision
       during the reporting period1                                                                     51	                23,759,352                    8,257,373

    C. Reports for which a management decision was made

       during the reporting period2
                                                                    26	                  5,571,293                   1,805,765

       i. Value of disallowed costs                                                                                          1,905,543                       211,652

       ii. Value of costs not disallowed                                                                                     3,665,750                   1,594,113

    D. Reports for which no management decision had been

       made by the end of the reporting period
                                                         25	                18,188,059                    6,451,608

1
 Seven audit reports included in this table are also included among reports with recommendations that funds be put to better use (see table 5). However, the dollar
amounts do not overlap.
2
In Category C, lines i and ii do not always equal the total on line C because resolution may result in values different than the original recommendations.




44                                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                                                             Office of Inspector General




Table 5. Audits with Recommendations that Funds Be Put to Better Use

     Report Category                                                                                                   Number                                  Value


     A. Reports for which no management decision had been made
        by the beginning of the reporting period                                                                                  7                          $6,834,605

     B. Reports issued during the reporting period                                                                                3                            421,340

         Total reports (A+B) requiring a management decision
         during the reporting period1                                                                                           10                            7,255,945

     C. Reports for which a management decision was made
        during the reporting period2                                                                                              7                           6,834,605

         i. Value of recommendations agreed to by management                                                                                                  4,115,663

         ii. Value of recommendations not agreed to by management                                                                                             2,718,942

     D. Reports for which no management decision had been made
        by the end of the reporting period                                                                                        3                            421,340

1
Seven audit reports included in this table are also included in the reports with questioned cost (see table 4). However, the dollar amounts do not overlap.
2
In Category C, lines i and ii do not always equal the total on line C because resolution may result in values different than the original recommendations.




Definitions of Terms Used                                                                merce management took action to implement and complete the
in the Tables                                                                            recommendation, including (1) reductions in outlays; (2)
                                                                                         deobligation of funds from programs or operations; (3) withdrawal
Questioned cost: a cost questioned by OIG because of (1) an al­                          of interest subsidy costs on loans or loan guarantees, insurance, or
leged violation of a provision of a law, regulation, contract, grant,                    bonds; (4) costs not incurred by implementing recommended im­
cooperative agreement, or other agreement or document govern­                            provements related to Commerce, a contractor, or a grantee; (5)
ing the expenditure of funds; (2) a finding that, at the time of the                     avoidance of unnecessary expenditures identified in preaward re­
audit, such cost is not supported by adequate documentation; or                          views of contracts or grant agreements; or (6) any other savings
(3) a finding that an expenditure of funds for the intended purpose                      specifically identified.
is unnecessary or unreasonable.
                                                                                         Management decision: management’s evaluation of the findings
Unsupported cost: a cost that, at the time of the audit, is not sup­                     and recommendations included in the audit report and the issu­
ported by adequate documentation. Questioned costs include un­                           ance of a final decision by management concerning its response to
supported costs.                                                                         such findings and recommendations, including actions concluded
                                                                                         to be necessary.
Recommendation that funds be put to better use: an OIG rec­
ommendation that funds could be used more efficiently if Com­




    March 2005/Semiannual Report to Congress                                                                                                                        45
Office of Inspector General




Appendix A. Report Types this Period

  Type                                                           Number of Reports                      Appendix


  Performance audits                                                    4                                   A-1

  Financial assistance audits                                          12                                   A-2

  Financial statements audits                                           6                                   A-3

  Inspections and systems evaluations                                   3                                   A-4

  Total                                                                25



Appendix A-1. Performance Audits

                                                                                                                   Funds to
                                                                                                                  Be Put to
  Report Title                                                         Report Number          Date Issued         Better Use

  Economics and Statistics Administration


  Some Improvements are Needed in the Handling of Reimbursable
  Agreements and the Sale of Products and Services                   FSD-16824-5-0001           03/31/05             —

  Management Controls Over Reimbursable Agreements at the
  U.S. Census Bureau Need Improvement                                FSD-16824-5-0002           03/31/05             —

  National Oceanic and Atmospheric Administration


  Inadequate Support Undercuts Value of Booz Allen Study
  and Its Recommended Changes to NOAA’s Finance and
  Administration Services                                            DEN-16948-5-0001           03/07/05             —

  Satellite Memorandums of Agreement Should Be Improved
  By Using New Guidance                                              BSD-16927-5-0001           03/31/05             —




46                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                              Office of Inspector General




Appendix A-2. Financial Assistance Audits

                                                                             Value of
                                                                             Funds to     Federal         Federal
                                                                  Date      Be Put to     Amount          Amount
 Report Title                               Report Number        Issued     Better Use   Questioned     Unsupported

 Economic Development Administration

 Utah Department of Community &
 Economic Development                      DEN-17065-5-0001      03/30/05      —            —                 —

 Economics & Statistics Administration

 ITS Services, Inc., VA                    DEN-16724-5-0001      11/24/04      —         $2,331,514      $1,060,647

 ITS Services, Inc., VA                    DEN-16724-5-0002      02/22/05      —         5,576,197        1,751,758

 ITS Services, Inc., VA                    DEN-16724-5-0003      03/15/05      —          579,666          410,618

 National Institute of Standards and Technology

 Reactive Nano Technologies, Inc., MD      DEN-16893-5-0001      02/17/05      —            —                 —

 Dimensional Control Systems, Inc., MI DEN-16926-5-0001          03/28/05      —          252,235          166,081

 AC Photonics, Inc., CA                    DEN-16869-5-0001      03/31/05      —            704               —

 National Oceanic and Atmospheric Administration

 Northwest Indian Fisheries
 Commission, Audit of the Subgrant
 with the Muckleshoot Tribe, WA            STL-16657-5-0002      02/11/05      —          540,902           50,618

 Northwest Indian Fisheries
 Commission, Audit of Subgrant
 with the Tulalip Tribe, WA                STL-16657-5-0006      02/23/05      —            —                 —

 Northwest Indian Fisheries
 Commission, Audit of Subagreement
 with the Makah Tribe, WA                  STL-16657-5-0004      03/31/05      —          441,250          441,250

 National Telecommunications and Information Administration

 University of New Hampshire
 Public Telecommunications
 Facilities Program Project           ATL-16981-5-000103/29/05     —           —            —                –—




March 2005/Semiannual Report to Congress                                                                           47
Office of Inspector General




Appendix A-3. Financial Statements Audits

  Report Title                                                                 Report Number                 Date Issued

  National Technical Information Service

  NTIS’ FY 2004 Financial Statements                                          FSD-16698-5-0001                 11/08/04

  Assessment of Information Technology Controls Supporting NTIS’
  Financial Management Systems FY 2004 Financial Statement Audit              FSD-16699-5-0001                 11/09/04

  Office of the Secretary


  Department of Commerce’s FY 2004 Consolidated Financial Statements          FSD-16696-5-0001                 11/08/04

  Assessment of Information Technology Controls Supporting DOC’s
  Financial Management Systems FY 2004 Financial Statement Audit              FSD-16697-5-0001                 11/09/04

  United States Patent and Trademark Office

  USPTO FY 2004 Financial Statements                                          FSD-16700-5-0001                 11/08/04

  Assessment of Information Technology Controls Supporting USPTO’s
  Financial Management Systems FY 2004 Financial Statement Audit              FSD-16701-5-0001                 11/09/04



Appendix A-4. Inspections and System Evaluations

                                                                                                             Funds to Be
                                                                                                                Put to
  Report Title                                                         Report Number       Date Issued        Better Use

  Bureau of Industry and Security

  The Export Licensing Process for Chemical and
  Biological Commodities Is Generally Working Well,
  But Some Issues Need Resolution                                        IPE-16946           3/31/05              —

  Annual Follow-up Report on Previous Export Controls
  Recommendations, as Mandated by the National Defense
  Authorization Act for Fiscal Year 2000, as Amended                     IPE-17361           3/31/05              —

  International Trade Administration


  Import Administration Has Met Most Statutory Deadlines
  on Antidumping Reviews, But Management Attention Is
  Needed in Other Areas                                                  IPE-16952           3/31/05              —




48                                                                      U.S. Department of Commerce/Office of Inspector General
                                                                                                                                                                        Office of Inspector General




Appendix B. Processed Reports

The Office of Inspector General reviewed and accepted 161 audit reports prepared by independent public accountants and local, state,
and other federal auditors. The reports processed with questioned costs, recommendations that funds be put to better use, and/or nonfi­
nancial recommendations are listed in Appendix B-1.

  Agency                                                                                                                                                                      Audits


  Economic Development Administration .................................................................................................................... 29


  National Institute of Standards and Technology* ....................................................................................................... 77


  National Oceanic and Atmospheric Administration ................................................................................................... 11


  National Telecommunications and Information Administration ................................................................................... 3


  Minority Business Development Agency ..................................................................................................................... 1


  Multiagency ................................................................................................................................................................ 33


  Agency not identified .................................................................................................................................................... 7


  Total .......................................................................................................................................................................... 161


*Includes 67 ATP program-specific audits.




March 2005/Semiannual Report to Congress                                                                                                                                                     49
Office of Inspector General




Appendix B 1. Processed Reports with Audit Findings

  Report Title                                                        Report Number                 Date Issued

  Economic Development Administration

  Commonwealth of Puerto Rico,
    Municipality of Rincon                                           ATL-09999-5-2007                 03/15/05

  City of Fort Worth, TX                                             ATL-09999-5-1983                 03/17/05
  Genesee Finger Lakes Regional
     Planning Council, NY                                            ATL-09999-5-2043                 03/17/05
  City of Flint, MI                                                  ATL-09999-5-1852                 03/18/05

  National Institute of Standards and Technology

  Molecular Applications Group, CA                                   ATL-09999-5-1920                 10/21/04
  Lexia Learning Systems, Inc., MA                                   ATL-09999-5-1596                 11/04/04
  GE Global Research, NY                                             ATL-09999-5-1834                 11/05/04

  NanoNexus, Inc., CA                                               DEN-09999-5-1739                  11/05/04
  nLine Corporation, TX                                             DEN-09999-5-1772                  11/10/04
  E.I. du Pont de Nemours and
      Company, NC                                                   DEN-09999-5-1798                  11/23/04

  Georgia Tech Research Corporation                                 DEN-09999-5-1743                  11/30/04
  Phoenix Science &
     Technology, Inc., MA                                            ATL-09999-5-1481                 12/14/04
  Sarnoff Corporation, NJ                                            ATL-09999-5-1767                 12/15/04

  Delphi Delco Electronics Systems, IN                              DEN-09999-5-1742                  01/05/05
  Organ Recovery Systems, Inc., SC                                   ATL-09999-5-1969                 02/10/05
  Intermet Corporation, MI                                           ATL-09999-5-1599                 03/15/05

  Microscan Systems, Inc., WA                                        ATL-09999-5-1835                 03/15/05
  Mississippi Technology Alliance                                    ATL-09999-5-2041                 03/15/05
  Minnesota Technology, Inc.                                         ATL-09999-5-1991                 03/17/05

  National Telecommunications and Information Administration

  Maine Public Broadcasting Corporation                              ATL-09999-5-2000                 03/15/05




50                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                                                                          Office of Inspector General




REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The requirements are listed
below and indexed to the applicable pages of this report.



  Section                                        Topic                                                                                                                              Page


  4(a)(2) ......................................... Review of Legislation and Regulations ................................................................................ 51-52


  5(a)(1) ......................................... Significant Problems, Abuses, and Deficiencies ................................................................... 11-39


  5(a)(2) ......................................... Significant Recommendations for Corrective Action ........................................................... 11-39


  5(a)(3) ......................................... Prior Significant Recommendations Unimplemented ............................................................... 51


  5(a)(4) ......................................... Matters Referred to Prosecutive Authorities .............................................................................. 43


  5(a)(5) and 6(b)(2) ...................... Information or Assistance Refused ............................................................................................ 52


  5(a)(6) ......................................... Listing of Audit Reports ....................................................................................................... 43-50


  5(a)(7) ......................................... Summary of Significant Reports ........................................................................................... 11-39


  5(a)(8) ......................................... Audit Reports—Questioned Costs ............................................................................................. 45


  5(a)(9) ......................................... Audit Reports—Funds to Be Put to Better Use ......................................................................... 45


  5(a)(10) ....................................... Prior Audit Reports Unresolved ................................................................................................. 52


  5(a)(11) ....................................... Significant Revised Management Decisions .............................................................................. 52


  5(a)(12) ....................................... Significant Management Decisions with which OIG Disagreed ............................................... 52





4(a)(2): Review of Legislation and                                                               Section 5(a)(3): Prior Significant
Regulations                                                                                      Recommendations Unimplemented

This section requires the inspector general of each agency to re­                                This section requires identification of each significant recommen­
view existing and proposed legislation and regulations relating to                               dation described in previous semiannual reports for which correc­
that agency’s programs and operations. Based on this review, the                                 tive action has not been completed. Section 5(b) requires that the
inspector general is required to make recommendations in the semi­                               Secretary transmit to Congress statistical tables showing the num­
annual report concerning the impact of such legislation or regula­                               ber and value of audit reports for which no final action has been
tions on the economy and efficiency of the management of pro­                                    taken, plus an explanation of the reasons why recommended ac­
grams and operations administered or financed by the agency or                                   tion has not occurred, except when the management decision was
on the prevention and detection of fraud and abuse in those pro­                                 made within the preceding year. To include a list of all significant
grams and operations. Comments concerning legislative and regu­                                  unimplemented recommendations in this report would be dupli­
latory initiatives affecting Commerce programs are discussed, as                                 cative. Information on the status of any audit recommendations
appropriate, in relevant sections of the report.                                                 can be obtained through OIG’s Office of Audits.




March 2005/Semiannual Report to Congress                                                                                                                                              51
Office of Inspector General




Sections 5(a)(5) and 6(b)(2): Information or                           period. Department Administrative Order 213-5, Audit Resolution
Assistance Refused                                                     and Follow-up, provides procedures for revising a management
                                                                       decision. For performance audits, OIG must be consulted and must
These sections require a summary of each report to the Secretary       approve in advance any modification to an audit action plan. There
when access, information, or assistance has been unreasonably          were none for this period. For financial assistance audits, OIG must
refused or not provided. There were no instances during this semi­     concur with any decision that would change the audit resolution
annual period and no reports to the Secretary.                         proposal in response to an appeal by the recipient. The decisions
                                                                       issued on the six appeals of audit-related debts were finalized with
Section 5(a)(10): Prior Audit Reports                                  the full participation and concurrence of OIG.
Unresolved
                                                                       Section 5(a)(12): Significant Management
This section requires a summary of each audit report issued be­        Decisions with which OIG Disagreed
fore the beginning of the reporting period for which no manage­
ment decision has been made by the end of the reporting period         This section requires information concerning any significant man­
(including the date and title of each such report), an explanation     agement decision with which the inspector general disagrees. De­
of why a decision has not been made, and a statement concerning        partment Administrative Order 213-5 provides procedures for el­
the desired timetable for delivering a decision on each such re­       evating unresolved audit recommendations to higher levels of
port. There were two NIST reports more than 6 months old. (See         Department and OIG management, including their consideration
page 33.)                                                              by an Audit Resolution Council. During this period no audit is­
                                                                       sues were referred to the council.
Section 5(a)(11): Significant Revised
Management Decisions

This section requires an explanation of the reasons for any signifi­
cant revision to a management decision made during the reporting




52                                                                                U.S. Department of Commerce/Office of Inspector General
ACRONYMS

APHIS .................................................................................................................................... Animal and Plant Health Inspection Service


ATP ........................................................................................................................................................... Advanced Technology Program


BEA ............................................................................................................................................................. Bureau of Economic Analysis


BIS ............................................................................................................................................................ Bureau of Industry and Security


CBS ............................................................................................................................................................... Commerce Business Systems


C&A ............................................................................................................................................................ certification and accreditation


CDC ....................................................................................................................................... Centers for Disease Control and Prevention


CIO ....................................................................................................................................................................... chief information officer


DAS .................................................................................................................................................................. Deputy Assistant Secretary


DSS ................................................................................................................................................................. Diplomatic Security Service


ECASS .................................................................................................................................... Export Control Automated Support System


ECIE ................................................................................................................................... Executive Council on Integrity and Efficiency


EDA ............................................................................................................................................. Economic Development Administration


ESA ................................................................................................................................................ Economics & Statistics Administration


FDCA .................................................................................................................................................... Field Data Collection Automation


FISCAM ............................................................................................................................. Federal Information System Controls Manual


FISMA .............................................................................................................................. Federal Information Security Management Act


FMFIA ....................................................................................................................................... Federal Managers Financial Integrity Act


GOES ........................................................................................................................ Geostationary Operational Environmental Satellites


GPRA ...................................................................................................................................... Government Performance and Results Act


IA ............................................................................................................................................................................. Import Administration


IG ..................................................................................................................................................................................... inspector general


IT ........................................................................................................................................................................... information technology


ITA ....................................................................................................................................................... International Trade Administration


MBDA ........................................................................................................................................ Minority Business Development Agency





 March 2005/Semiannual Report to Congress                                                                                                                                                         53
Acronyms




MOA ................................................................................................................................................................ memorandum of agreement


MOU .......................................................................................................................................................... memorandum of understanding


NASA .............................................................................................................................. National Aeronautics and Space Administration


NDAA ................................................................................................................................................ National Defense Authorization Act


NIST ................................................................................................................................ National Institute of Standards and Technology


NESDIS ................................................................................................ National Environmental Satellite, Data, and Information Service


NMFS ................................................................................................................................................... National Marine Fisheries Service


NOAA ......................................................................................................................... National Oceanic and Atmospheric Administration


NTIA ........................................................................................................ National Telecommunications and Information Administration


NWS ................................................................................................................................................................... National Weather Service


OIG .................................................................................................................................................................. Office of Inspector General


OMB .................................................................................................................................................... Office of Management and Budget


OSY ................................................................................................................................................................................ Office of Security


PCIE ................................................................................................................................. President’s Council on Integrity and Efficiency


POES ...................................................................................................................................... Polar Operational Environmental Satellites


RIMS ......................................................................................................................................... Regional Input-Output Modeling System


USDA ....................................................................................................................................................... U.S. Department of Agriculture


USPTO ................................................................................................................................... United States Patent and Trademark Office





54                                                                                                                    U.S. Department of Commerce/Office of Inspector General
TYPES OF OIG WORK PRODUCTS



The various kinds of audits, evaluations, inspections, and investi­    management’s discussion and analysis presentations, and
gations at our disposal enable the IG’s office to assess Commerce      allowability and reasonableness of final grant and contract costs.
programs and operations from a range of perspectives. Thus we
are able to provide program managers with reviews and recom­
mendations that are either narrowly focused or comprehensive, as
needed, to aid them in ensuring the most efficient and effective       INSPECTIONS
use of taxpayer dollars.
                                                                       Inspections are reviews of an activity, unit, or office, or a contractor
                                                                       or other nonfederal entity that receives funds from the Department.
AUDITS                                                                 They focus on an organization, not a whole program, and are often
                                                                       designed to give agency managers timely and useful information about
Performance Audits address the efficiency, effectiveness, and
                                                                       operations, including current and foreseeable problems.
economy of the Department’s programs, activities, and informa­
tion technology systems. They may check a unit’s compliance with
laws and regulations, and evaluate its success in achieving pro­
gram objectives. They may also involve reviewing the Department’s      EVALUATIONS
financial assistance awards by assessing an award recipient’s com­
pliance with laws, regulations, and award terms; allowance of costs;   Program Evaluations are in-depth reviews of specific manage­
and the degree to which projects achieved intended results.            ment issues, policies, or programs.

Financial Audits determine whether (1) a reporting entity’s fi­        Systems Evaluations review system development, acquisitions,
nancial statements are presented fairly and in accordance with         operations, and policy, focusing on computer systems and other
generally accepted accounting principles; (2) the entity has an        technologies.
internal control structure that provides reasonable assurance of
achieving the control objectives set forth by OMB; and (3) the
entity complied with laws and regulations that could have a di­
rect and material effect on the financial statements, the Federal      INVESTIGATIONS
Financial Management Improvement Act, and other laws and
regulations.                                                           Investigations are conducted based on alleged or suspected wrong­
                                                                       doing by Department employees, contractors, recipients of finan­
Attestation Engagements involve examining, reviewing, or per­          cial assistance, and others responsible for handling federal re­
forming agreed-upon procedures on a subject matter or an asser­        sources. Investigations that expose violations of Department rules
tion about a subject matter and reporting the results. Attestation     and regulations or acts of fraud committed against the U.S. gov­
engagements can have a broad range of financial or nonfinancial        ernment can result in administrative sanctions and/or criminal or
focuses, such as an entity’s compliance with laws and regulations,     civil prosecution.




March 2005/Semiannual Report to Congress                                                                                                 55
Final OIG SAR covers.qxd     5/19/05    9:34 AM       Page 1




                                                               Semiannual Report
                           U.S. Department of Commerce
                            Office of Inspector General
                                Room 7099C, HCHB
                                                               to Congress
                           1401 Constitution Avenue, N.W.
                              Washington, D.C. 20230

                                 Internet Web Site:
                                 www.oig.doc.gov




                                                                           March 2005
